<html>
<title> - COUNTERTERRORISM</title>
<body><pre>[Senate Hearing 105-383]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 105-383
 
                            COUNTERTERRORISM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
46-491 cc                  WASHINGTON : 1998

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-056204-X






                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Janet Reno, Attorney General, Office of the Attorney 
  General, Department of Justice.................................     1
Opening statement of Hon. Ted Stevens............................     1
Statement of Hon. Judd Gregg.....................................     2
Summary statement of Janet Reno..................................     2
Administration's strategy........................................     2
Objectives.......................................................     3
International cooperation........................................     3
Training strategy................................................     4
Prevention of terrorism..........................................     4
Congressional involvement........................................     5
Prepared statement of Janet Reno.................................     5
Statement of Louis J. Freeh, Director, Federal Bureau of 
  Investigation, Department of Justice...........................     8
Reducing vulnerabilities through preparation.....................     9
Source of terrorism..............................................    10
Domestic terrorism...............................................    10
FBI roles and responsibilities...................................    10
Prepared statement of Louis J. Freeh.............................    12
Statement of George J. Tenet, Acting Director, Central 
  Intelligence Agency............................................    19
Prepared statement of George J. Tenet............................    22
Working technology...............................................    23
Communications assistance for law enforcement activity [CALEA]...    24
Courts...........................................................    24
Coordination and cooperation.....................................    25
Customers........................................................    26
Security measures................................................    27
Prosecution of crimes............................................    28
Olympic lessons learned..........................................    29
Internet excerpts................................................    29
Internet.........................................................    30
Prepared statement of Madeleine Albright, Secretary of State, 
  Department of State............................................    30
Multiple agency coordination.....................................    33
Intelligence collection..........................................    34
Evidence development.............................................    35
Translation centers..............................................    36
Terrorist threat.................................................    37
Integrated force training........................................    37
Organized crime..................................................    38
Defense budget...................................................    38
Counterterrorism support.........................................    40
Standards and guidelines.........................................    41
Enactment of laws................................................    42
Additional committee questions...................................    43
    Federal Bureau of Investigation..............................    44
    Questions submitted by Senator Frank R. Lautenberg...........    44
        Illegal fundraising......................................    44
    Questions submitted by Senator Harry Reid....................    44
        Terrorism threat.........................................    44


                            COUNTERTERRORISM

                              ----------                              


                         TUESDAY, MAY 13, 1997

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 1:58 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Burns, Shelby, 
Gregg, Bennett, Campbell, Craig, Hollings, and Reid.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF JANET RENO, ATTORNEY GENERAL


                 opening statement of hon. ted stevens


    Chairman Stevens. We will break a record and start our 
hearing early for a change. Thank you all for coming.
    The incident 3 weeks ago at the world headquarters of the 
Jewish organization B'nai B'rith right here in Washington, DC, 
and the protracted siege of the residence of the Japanese 
Ambassador in Lima, Peru, are troubling signs that extremists 
are prepared to take American lives to advance their purposes. 
We have had a series of events in our own country that we all 
know about, the World Trade Center bombing, the Oklahoma City 
bombing, we have also had overseas activity such as the Khobar 
Towers incident. We could go on with a long list. What we have, 
however, is an issue that has tremendous impact here at home, 
and we believe that Americans are starting to feel vulnerable, 
not just from what is going on around the world but right here 
in the United States.
    In the context of these tragedies, which we are all too 
familiar with, our committee is concerned that we do not have 
an adequate comprehensive strategy when combating domestic and 
international terrorism. Senator Gregg has requested that we 
hold this hearing today. We want to ensure that our efforts are 
given the highest priority; that they are coordinated with the 
many participating domestic agencies and foreign governments, 
both in terms of planning and resources, and we would like to 
be able to move forward with you to help come to grips with 
this very critical issue in our country.
    We want to provide the funding that is necessary to combat 
terrorism, and we appreciate your coming here to be with us 
today.
    Do you have an opening statement, Sir?


                      STATEMENT OF HON. JUDD GREGG


    Senator Gregg. I would just like to thank the chairman for 
initiating this hearing. It is, I think, an important hearing. 
What we need to address is how we are anticipating potential 
terrorist events and whether or not we have adequate 
coordination between the various agencies. There are an awful 
lot of them that are involved in protecting this country from 
terrorist action. I believe that this committee has the unique 
capacity to bring all these agencies together, having oversight 
over all of them from the appropriations standpoint, and, 
therefore, I appreciate the chairman's being willing to hold 
this hearing.
    Chairman Stevens. Madam Attorney General, Director Freeh, 
and Director Tenet, we are pleased to have you here. We are 
going to open this hearing in a public session, and then we 
would ask that you go with us to a classified area later to 
talk about some things that we would like to make sure of 
before we handle the appropriations bills this year. We would 
be pleased to have your statement.


                    SUMMARY STATEMENT OF JANET RENO


    Ms. Reno. Thank you, Mr. Chairman and Senator Gregg. We 
very much appreciate this opportunity, and it is my privilege 
to be here before you today for the purpose of discussing with 
you our efforts to combat terrorism. The protection of our 
Nation and its people from acts of terrorism is a matter of the 
highest priority. American citizens and interests, both at home 
and abroad, are targets of choice of international terrorists. 
Further, the risk of terrorism within our borders does not 
result solely from grievances imported from overseas as, 
increasingly, acts of terrorism are perpetrated by disaffected 
citizens.
    Whatever the origin or misguided motivation of the 
particular terrorist, the potential consequences of a single 
incident can be enormous. We must never forget the magnitude of 
human suffering that flows from acts such as Pan Am 103 and the 
World Trade Center. As weapons of mass destruction become more 
accessible, we face the potential of even more catastrophic 
acts.
    The challenge that terrorism presents to a free society is 
that we must endeavor to hone our skills and techniques sharply 
enough to prevent terrorist acts while respecting the 
individual rights and liberties for which this Nation stands. 
We have made much progress in the past several years, 
successfully preventing a number of potentially deadly 
terrorist attacks at home and abroad. We have demonstrated that 
our commitment is unflagging and our memory is very long. But 
more work needs to be done.


                       ADMINISTRATION'S STRATEGY


    The administration's comprehensive strategy for meeting the 
challenges presented by terrorism is detailed in the report 
that I submitted to you earlier this month. The framework for 
that strategy is contained in the Presidential decision 
directive 39, dated June 21, 1995. The PDD seeks to integrate 
roles of pertinent Federal agencies in a comprehensive, 
proactive program to prevent and to punish terrorist acts.
    The policy of our Government in dealing with acts of 
terrorism, both at home and abroad, is straightforward. First, 
we seek to reduce the vulnerabilities at home and abroad. We 
will do everything possible to deter and prevent terrorist 
acts. When acts of terrorism do occur, we will respond quickly 
and decisively with the full range of options that we have 
available, including apprehension and prosecution. We will 
develop an effective capability to detect, prevent, defeat, and 
manage consequences of nuclear, biological, and chemical 
material and weapons used by terrorists.


                               OBJECTIVES


    Let me explain briefly some of the means by which we seek 
to accomplish these objectives. We seek to reduce our 
vulnerabilities to terrorist attack, both at home and abroad, 
by assessing the risk that terrorism poses and by taking steps 
designed to prevent or minimize such risk. For example, the 
FBI's new counterterrorism center is staffed with 
representatives of 17 different agencies. With the integration 
of the capabilities of these agencies, the FBI can now conduct 
real time analysis and processing of information with the goal 
of detecting and preventing acts of terrorism.
    Additionally, a Presidential Commission on Critical 
Infrastructure Protection has been created. It brings together 
key representatives from both Government and the private sector 
to assess vulnerabilities and to propose comprehensive national 
policies and strategies. As part of this effort, an information 
protection task force has been created. It is a multiagency 
effort to identify and coordinate existing expertise and 
capability in the Government and the private sector relative to 
critical infrastructure protection. Consistent with that 
effort, the FBI has established a Computer Investigations and 
Infrastructure Threat Assessment Center.
    The development of effective coordination among 
counterterrorism agencies is a critical aspect of preparation. 
PDD-39 facilitates such coordination by delineating the 
appropriate roles of Federal counterterrorism agencies. 
Similarly, the FBI has created 14 joint terrorism task forces 
which integrate Federal, State, and local law enforcement 
authorities in particular localities. Further plans are 
underway to involve State and local authorities in the FBI's 
new counterterrorism center.
    Moreover, I have directed that the FBI implement a 
comprehensive effort to coordinate with State and local law 
enforcement, owners and operators of critical infrastructure, 
and State and local emergency managers to identify potentially 
vulnerable facilities, critical infrastructures, and special 
events, and to collaborate with these officials to develop 
plans to prevent and respond to terrorist attacks. I have asked 
that clear lines of communication be established so that 
relevant information can be quickly and accurately exchanged 
among these individuals.


                       INTERNATIONAL COOPERATION


    U.S. coordination also includes bilateral and multilateral 
consultations and cooperation with foreign governments that 
share our objectives in countering terrorism. Under the 
leadership of the State Department we are working closely 
within the context of the P-8, recently renamed the eight, to 
improve coordination and to develop tangible measures to assist 
in terrorism prevention and response.


                           TRAINING STRATEGY


    Training is also a key element of the U.S. strategy to 
reduce this Nation's vulnerability to terrorism, since an 
effective response to a terrorist threat requires multiple 
agencies to interrelate smoothly under extreme pressure. 
Federal agencies involved in responding to acts of terrorism 
regularly engage in realistic training exercises which 
recognize the important role of State and local agencies.
    Additionally, six Federal agencies, the FBI, the Department 
of Defense, FEMA, the EPA, the Public Health Service, and the 
Department of Energy are working cooperatively to provide 
weapons of mass destruction training to State and local 
emergency responders. This initiative will train emergency 
responders in 120 cities throughout the United States, with the 
initial 9 cities to receive training before the end of the 
fiscal year.


                        PREVENTION OF TERRORISM


    The United States seeks to deter terrorism through broad 
dissemination of a clear message that we will not allow 
terrorism to achieve its objectives; we will not make 
concessions to terrorists; we will vigorously apply our 
criminal statutes to those who commit acts of terrorism 
anywhere in the world; and we will endeavor to apprehend 
terrorists wherever they seek refuge.
    Further, the prevention of terrorism involves the 
interrelation of U.S. intelligence and investigative 
capabilities to detect and react effectively to incipient 
terrorist threats. By making effective use of intelligence 
product, we seek to involve the FBI in the investigation of 
terrorist plots as early in the chain of conspiratorial events 
as possible. In this way, the plot cannot only be disrupted but 
the conspirators can also be apprehended, preventing them from 
recycling their terrorist plans for use at some unknown future 
time and place.
    Overseas, U.S. agencies working in coordination with their 
foreign counterparts disrupted a plot to bomb a dozen U.S. 
commercial jumbo jets flying Asian-Pacific routes. Three of the 
terrorists involved in this plot were arrested in distant 
countries, brought to the United States, and convicted in 
Federal court. Within the United States, investigative efforts 
resulted in the arrest and conviction of Sheik Omar Abdel 
Rahman and a number of his followers before they could carry 
out a deadly plot to bomb buildings, tunnels, and a bridge in 
Manhattan. Prevention of these two terrorist plots alone 
averted the death or serious injury of tens of thousands of 
Americans.
    While the paramount objective is to prevent terrorist 
attacks, this goal cannot always be realized. When such acts 
occur, the pertinent U.S. agencies utilize their painstaking 
planning and training in an effort to respond in a coordinated 
and in an effective manner. There are separate deployment plans 
depending on whether the terrorist act occurs overseas or 
within the United States. Although the FBI is the lead Federal 
investigative agency regardless of the place where the 
terrorist act occurs, responsibility for overall management of 
the U.S. response to overseas terrorist attacks is vested in 
the chief of mission. In contrast, within the United States, 
the FBI is in charge of the overall Federal response. In either 
case, the resources of all pertinent Federal agencies are 
available as needed under plans which are designed to ensure 
the effective integration and coordination of these resources.
    The objective is to develop sufficient evidence to permit 
the indictment of the perpetrators and the issuance of warrants 
for their arrest. Although efforts to locate international 
terrorists and obtain their rendition to the United States are 
often very protracted, the passage of time does not diminish 
the Government's ardor for pursuing these international 
criminals. In one case, for example, custody of a defendant was 
obtained and his conviction achieved 19 years after his 
terrorist acts. In another case, the perpetrator of a deadly 
1985 air piracy in the Middle East was tried and convicted in 
the United States in 1996. During these past 4 years, the 
relentless efforts to apprehend such fugitives have resulted in 
the rendition to the United States of seven individuals on 
charges relating to deadly terrorist plots.
    The U.S. strategy for combating terrorism is a dynamic one. 
It is continually subject to reevaluation and is supplemented 
as appropriate to address newly identified concerns and 
circumstances. It requires the continuing efforts of 
participating agencies to perfect their operations and maintain 
their readiness.


                       CONGRESSIONAL INVOLVEMENT


    Congress, of course, is an integral part of the dynamic 
process by which the counterterrorism program continues to be 
improved and perfected. The new counterterrorism funding 
provided in the final days of the 104th Congress has permitted 
the development of a more comprehensive response to terrorist 
attacks, including those involving nuclear, biological, or 
chemical weapons, and we are very grateful to you.
    Much progress has been made during the past few years in 
preparing the United States to prevent acts of terrorism and to 
respond to those terrorist threats that do arise. However, many 
challenges remain including, most significantly, those relating 
to weapons of mass destruction and infrastructure protection. 
Accordingly, while the PDD-39 strategy has placed U.S. 
counterterrorism efforts on course, we continue to work on a 
priority basis with the other components of our Government and 
with like-minded foreign governments to maximize our ability to 
address this area of critical concern.

                           PREPARED STATEMENT

    We appreciate and thank you for the opportunity to be here 
with you today, sir.
    Chairman Stevens. Thank you for joining us. We appreciate 
it very much.
    [The statement follows:]
                    Prepared Statement of Janet Reno
    Thank you, Mr. Chairman and members of the Committee. I have 
submitted a more detailed, classified statement to the Committee. I 
will briefly summarize some of the unclassified portions of that 
statement, and then would be happy to answer specific questions. 
However, since many of the details of our counterterrorism efforts are 
classified for security reasons, it will only be possible to address 
some of your questions in open session.
    It is my privilege to appear before you today for the purpose of 
discussing with you our accomplishments over the past several years in 
the struggle against terrorism and the preparations that we are 
undertaking for combatting that scourge during the coming years.
    The protection of our nation and its people from acts of domestic 
and international terrorism is among the greatest challenges faced by 
this Administration and one of the highest priorities of the Department 
of Justice. Over the past two decades, it has become clear that 
American citizens and interests abroad are the targets of choice of 
terrorists. More recently, it has become apparent in the wake of the 
World Trade Center bombing that we are not immune from international 
terrorist attacks on our own soil. Further, the risk of terrorism 
within our borders does not result solely from grievances imported from 
overseas as, increasingly, acts of terrorism are planned by home-grown 
groups and perpetrated by disaffected citizens.
    Whatever the origin or misguided motivation of the particular 
terrorist, the potential consequences of a single incident can be 
enormous. The magnitude of human suffering that flows from acts such as 
the bombings of Pan Am Flight 103 and the World Trade Center is 
incalculable. As weapons of mass destruction become more accessible, we 
face the potential of even more catastrophic acts. The nerve gas attack 
in the Tokyo subway was a grim warning of this potential.
    The challenge that terrorism presents to a free society is that we 
must endeavor to hone our skills and techniques sharply enough to 
prevent terrorist acts while fully respecting the individual rights and 
liberties for which this nation stands. We have made much progress in 
the past several years, successfully preventing a number of potentially 
deadly terrorist attacks at home and abroad. We have demonstrated that 
our commitment is unflagging and our memory is long. But, much work 
remains to be done.
    The Administration's comprehensive strategy for meeting the 
challenges presented by terrorism is detailed in the report that I 
submitted to you earlier this month, as well as in my classified 
statement. The framework for that strategy is contained in Presidential 
Decision Directive 39 (PDD-39), dated June 21, 1995. The PDD seeks to 
integrate the roles of all pertinent federal agencies in a 
comprehensive, proactive program to prevent and punish terrorist acts.
    The policy of our government in dealing with acts of terrorism, 
both at home and abroad, is straightforward. We will do everything 
possible to deter and prevent terrorist attacks. When acts of terrorism 
do occur, we will respond quickly and decisively, with the full panoply 
of options that we have available. We will work with our friends 
throughout the world to interdict terrorists and ensure their acts do 
not go unpunished.
    Let me explain briefly some of the means by which we seek to 
accomplish these objectives.
Reducing Vulnerabilities Through Preparation
    We seek to reduce our vulnerabilities to terrorist attack, both at 
home and abroad, by assessing the risks that terrorism poses to U.S. 
nationals, employees, and facilities, and by taking steps designed to 
prevent or minimize such risks. This is exemplified by the ongoing 
efforts of the Presidential Commission on Critical Infrastructure 
Protection. The Commission brings together key representatives from 
both government and the private sector to assess vulnerabilities and to 
propose comprehensive national policies and strategies. The Commission 
will complete its work and make its recommendations this fall.
    Similarly, one of the FBI's recent initiatives has been the 
establishment of a Computer Investigations and Infrastructure Threat 
Assessment Center. The purpose of the Center is to identify the 
potential threat posed by terrorism to telecommunications and automated 
information systems, as well as to critical physical infrastructures. 
Working together with state and local authorities and the private 
sector, the FBI is endeavoring to develop ways to address those 
threats. The focus of these efforts will be refined consistent with the 
recommendations of the Presidential Commission.
    Since terrorism prevention and response require the interaction of 
numerous agencies within the United States, effective coordination is 
critical. PDD-39 delineates the appropriate roles of federal agencies 
involved in addressing terrorism. Additionally, pursuant to the PDD, 
detailed coordination plans have been drafted to guide the deployment 
of resources in response to a threatened or actual terrorist incident. 
There are separate plans relating to overseas terrorist incidents and 
domestic terrorist incidents.
    In addressing international terrorism, ongoing U.S. coordination 
efforts include bilateral and multilateral consultations and 
cooperation with foreign governments that share our objectives in 
countering terrorism. For example, we are working closely within the 
context of the P-8, recently renamed the Eight, to improve coordination 
and to develop tangible measures to assist in terrorism prevention and 
response. These measures include the development and submission to the 
United Nations of a draft convention directed at terrorist bombings of 
government facilities, public transportation systems, and places of 
general public use. Additionally, the Eight is actively involved in 
exploring the development of a number of other measures including 
tougher international standards for bomb detection and airport 
security, and the means to facilitate lawful government access to 
encrypted communications.
    Similarly, preparations relating to terrorist threats and acts 
within the United States involve the development of effective 
coordination with state and local authorities. For example, the FBI has 
created 14 joint terrorism task forces which integrate the federal, 
state, and local law enforcement authorities in the particular 
locality. Additional task forces are in the planning or developmental 
stage. Similarly, plans are underway to involve state and local 
authorities in the FBI's new counterterrorism center.
    I have directed that the FBI implement a comprehensive effort to 
coordinate with state and local law enforcement, owners and operators 
of critical infrastructure, and state and local emergency managers, in 
order to prevent and respond to terrorist activities. I have asked that 
clear lines of communication be established so that the relevant 
information can quickly and accurately be exchanged among these 
officials. I have further directed that the FBI coordinate with these 
officials to identify potentially vulnerable facilities, critical 
infrastructures, and special events, and to collaborate with these 
officials to develop plans to prevent and respond to terrorist attacks.
    Since the ability to mount an effective response to a terrorist 
incident requires multiple agencies to interrelate smoothly under 
extreme pressure, training is also a key element of the U.S. strategy 
to reduce this nation's vulnerability to terrorism. To that end, the 
federal agencies involved in responding to extraterritorial acts of 
terrorism regularly engage in realistic training exercises which 
include after action evaluations designed to identify weaknesses and to 
facilitate their correction. Training relating to acts of terrorism 
occurring within the United States recognizes the important role of 
state and local agencies.
    Current planning and training efforts relating to terrorism focus 
particular attention on addressing incidents involving weapons of mass 
destruction. For example, the FBI and DOD are spearheading an 
initiative, in coordination with the Department of Energy, FEMA, and 
other federal agencies, to provide WMD training to state and local 
emergency responders. This initiative will train emergency responders 
in 120 cities throughout the United States, with the initial nine 
cities due to receive training before the end of the current fiscal 
year. Similarly, the FBI and DOD are undertaking a three-year 
initiative which will involve training and assistance to foreign law 
enforcement officials, prosecutors, and judges in addressing nuclear, 
chemical, and biological trafficking and proliferation.
Prevention of Terrorist Acts
    The U.S. seeks to deter terrorism through broad public 
dissemination of a clear message, including that we will not make 
concessions to terrorists; we will vigorously apply our criminal 
statutes to those that commit acts of terrorism anywhere in the world; 
and we will endeavor to apprehend terrorists wherever they seek refuge. 
Simply put, we will not allow terrorism to serve as a viable means to 
fulfill social or political objectives.
    Similarly, the U.S. seeks to prevent terrorist acts by isolating 
nations which sponsor or support terrorism. Pursuant to its legislative 
authority, the State Department currently has seven nations designated 
as sponsors of terrorism--Iran, Iraq, Libya, Sudan, Syria, Cuba, and 
North Korea. Such designations trigger a series of economic sanctions.
    Further, the prevention of terrorism involves the coordination of 
U.S. intelligence and investigative capabilities to detect and react 
effectively to incipient terrorist threats. Making effective use of 
intelligence product, the objective includes involving the FBI in the 
investigation of terrorist plots as early in the chain of 
conspiratorial events as possible. In this way, the terrorist plot 
cannot only be disrupted but the conspirators can also be apprehended, 
preventing them from recycling their terrorist plans for use at some 
unknown future time and place.
    Overseas, the integrated efforts of pertinent U.S. agencies, 
working in coordination with their foreign counterparts, resulted in 
the disruption of a plot to bomb a dozen U.S. commercial jumbo jets 
flying Asian-Pacific routes, the arrests of three of the plotters in 
distant countries, and the conviction of those defendants in U.S. 
federal court. Within the United States, investigative efforts resulted 
in the arrests of Sheik Omar Abdel Rahman and a number of his followers 
before they could carry out a deadly plot to bomb buildings, tunnels, 
and a bridge in Manhattan. Prevention of these two terrorist plots 
alone averted the death or serious injury of tens of thousands of 
Americans.
Response to Terrorist Acts

    While our paramount objective is to prevent terrorist acts, thereby 
sparing innocent people from their tragic consequences, it will not 
always be possible to prevent terrorist acts. When such acts occur, the 
pertinent U.S. agencies seek to utilize their painstaking planning and 
training to respond in a highly coordinated and effective manner.
    As mentioned previously, there are separate deployment plans 
depending on whether the terrorist act occurs overseas or within the 
United States. Although the FBI is the lead federal investigative 
agency regardless of the place where the terrorist act occurs, the 
State Department is the lead agency for overall management of the U.S. 
response to terrorism overseas. In contrast, within the U.S., the FBI 
is in charge of the overall federal response. In either case, the 
resources of all pertinent federal agencies are available as needed 
under plans which are designed to ensure the effective integration and 
coordination of those resources.
    All overseas acts of terrorism which significantly impact U.S. 
persons or property are the subject of a criminal investigation. The 
objective is to develop sufficient evidence to permit the indictment of 
the perpetrators and the issuance of warrants for their arrest.
    Although efforts to locate and obtain the rendition of a defendant 
to the United States are often very protracted, the passage of time 
does not diminish the government's ardor for pursuing these 
international outlaws. In one case, for example, custody of a defendant 
was obtained, and his conviction achieved, 19 years after his terrorist 
acts. In another case, the perpetrator of a deadly 1985 air piracy in 
the Middle East was tried and convicted in the United States in 1996. 
During the past four years, the relentless efforts to apprehend such 
fugitives have resulted in the rendition to the United States of seven 
individuals on charges relating to highly deadly terrorist plots.
    The U.S. strategy for combatting terrorism is a dynamic one. It is 
continually subject to reevaluation and is supplemented as appropriate 
to address newly-identified concerns and circumstances. The strategy 
requires the continuing efforts of participating agencies to perfect 
their operations and maintain readiness.
    Congress is, of course, an integral part of the dynamic process by 
which the counterterrorism program continues to be improved and 
perfected. The new counterterrorism funding provided in the final days 
of the 104th Congress has permitted the development of a more 
comprehensive response to terrorist attacks including those involving 
nuclear, biological, or chemical weapons.
    The Committee has provided significant support in our efforts to 
counter and investigate acts of terrorism. Your foresight made 
available $545 million in counterterrorism resources in the 1995 
Oklahoma City Supplemental, the 1996 Counterterrorism Amendment, and 
the 1997 Counterterrorism Enhancement. These resources provided over 
2,000 new positions, including over 600 additional FBI Agents and 
nearly 90 Assistant U.S. Attorneys. A substantial portion of the 
Department's 1998 request includes annualization resources critical to 
fully-fund the important enhancements initiated in 1997. Our 1998 
request also includes a limited number of enhancements, including funds 
aimed to bolster the Criminal Division and U.S. Attorneys' 
investigative and prosecutorial activities.
    Much progress has been made during the past few years in preparing 
the United States to prevent acts of terrorism and to respond to those 
terrorist threats that do arise. However, many challenges remain 
including, most significantly, those relating to weapons of mass 
destruction and infrastructure protection. Accordingly, while the PDD-
39 strategy has placed U.S. counterterrorism efforts on course, we 
continue to work on a priority basis with the other counterterrorism 
components of our government and with like-minded foreign governments 
to maximize our ability to address this area of critical concern.

                    Federal Bureau of Investigation

STATEMENT OF LOUIS J. FREEH, DIRECTOR

    Chairman Stevens. Director Freeh.
    Mr. Freeh. Thank you, Mr. Chairman. It is a pleasure, as 
always, to appear before the committee. Let me request that my 
longer statement be made part of the record. What I would like 
to do in a very few minutes is just give you an overview of 
what is contained in there.
    Chairman Stevens. We will print all of your statements in 
the record in full. We appreciate your courtesy. Thank you.
    Mr. Freeh. Thank you. Let me also begin and echo the 
Attorney General in my appreciation for the funding which this 
committee has provided, particularly in the counterterrorism 
area, which is the subject of this hearing. We now expend 
approximately $243 million supporting over 2,600 positions 
dedicated solely to counterterrorism threats. That is a 
threefold increase in that initiative since I became the FBI 
Director. We have been able to achieve many of our initiatives 
and successes, some alluded to by the Attorney General, because 
of that substantial funding and the men and women of law 
enforcement, particularly in the FBI. We appreciate very much 
the support from this committee, particularly Senator Gregg and 
Senator Hollings.

              REDUCING VULNERABILITIES THROUGH PREPARATION

    The U.S. policy on terrorism is actually a very concise 
one. The protection of this Nation and its people against 
terrorist threats, whether domestic or foreign, is of the 
highest priority of the U.S. Government. The cornerstones of 
this policy are the reduction of vulnerabilities of the United 
States to terrorism at home and abroad; other terrorism to be 
deterred through clear public positions that our policy will 
not be affected by terrorist acts; our willingness and ability 
to respond rapidly and decisively to terrorism directed against 
the United States; and to develop the capabilities to deter, 
prevent, defeat, and manage consequences of nuclear, chemical, 
or biological attacks.
    If you look at the FBI's current 10 most wanted fugitives 
list, it will give you an indication of the priority that 
counterterrorism has in the FBI. This list used to include 
mobsters and gangsters. We now have individuals such as Abdel 
Al-Megrahi and Lamen Fhimah. They are the two fugitives who 
have been charged with the bombing of Pan Am 103. As the 
Attorney General mentioned, time is not the issue with respect 
to the apprehension and prosecution of those individuals. Also 
on the list is an individual named Mir Aimal Kansi, who was 
responsible for the murders outside the CIA headquarters, and 
who remains a fugitive.
    The renditions and extraditions which the Attorney General 
alluded to since 1993, emphasize and demonstrate very 
powerfully the counterterrorism policy of the United States. 
The individuals who are included on that list include Yousef, 
Walikhan, Najim, Abu Halimah, individuals charged in the World 
Trade bombing case and the Manila air case; an individual 
responsible for a 1985 hijacking; Rhezak Hakim, who is being 
charged with the Manila air conspiracy; and an individual named 
Zherezaki who is wanted for a 1986 attack on the United States 
Embassy in Indonesia. These cases remain a top priority of both 
the law enforcement and the intelligence communities. All of 
these renditions and extraditions were accomplished in close 
coordination and cooperation with the Central Intelligence 
Agency which assisted in the location of some of these 
individuals. We are very appreciative of their assistance.

                          SOURCE OF TERRORISM

    The current international terrorist threat comes from 
several sources: one such source is the seven foreign 
governments who have been publicly identified as sponsors of 
terrorism. We are concerned about the organized groups both 
abroad and within the United States, particularly Hamas and 
Hizballah and some of the radical fundamentalist groups. We are 
concerned also about the more informal ad hoc conspiracies 
demonstrated in the World Trade bombing case, which are harder 
to anticipate and more difficult to monitor because of their ad 
hoc nature and the mobility of the co-conspirators.

                           DOMESTIC TERRORISM

    With respect to the current domestic terrorism threats, 
which you alluded to, Mr. Chairman, there is a long list of 
current attacks and problems which have required the FBI to 
devote vast new resources to address. We are looking within the 
United States at various individuals, as well as organizations, 
who have an ideology which suspects government, particularly 
the Federal Government, of world order conspiracies, and 
individuals who for various reasons have organized themselves 
against the United States. We are not concerned about the 
association of individuals who espouse ideologies which are 
perhaps inconsistent with principles of Federal Government. All 
of our investigations in domestic counterterrorism have to be 
predicated on an indication of criminal activity. The 
individuals and groups who pose a danger to people's lives and 
liberties are the subjects of these investigations.
    There has been a long list of planned acts of terror which 
were interrupted by the coordinated efforts, not just within 
the Department of Justice, but across the Federal, State, and 
local law enforcement communities. Last month on April 22, a 
group of individuals in Texas, members of a Ku Klux Klan-type 
organization, were arrested because they planned, as they are 
now charged with doing, a series of attacks which would have 
included the blowing up of a natural gas storage facility as a 
diversionary tactic to another criminal act which they are 
charged with planning.
    Going back over the last few months, individuals as well as 
organized groups of individuals, have been arrested. In West 
Virginia, a group of individuals planned to blow up the FBI 
CJIS Fingerprint Center were interrupted by arrest. The Freemen 
situation was predicated by the arrest of individuals who were 
planning to kidnap and try various State officials in Montana 
was resolved. All these cases were predicated on criminal 
activity.

                     FBI ROLES AND RESPONSIBILITIES

    With respect to the FBI's roles and responsibilities, as 
the Attorney General stated, they are reaffirmed in the PDD-39 
document which members of this committee are familiar with. 
That document sets out the responsibilities, not only of the 
FBI, but emphasizes the coordination which is required among 
all Federal agencies to meet the objectives of Federal policy 
with respect to terrorism.
    There is particular emphasis in that plan for coordination 
between the Department of Defense and the Department of Justice 
in areas where chemical, nuclear, or biological threats present 
themselves. This is an area, combined with the infrastructure 
threats, that is adding a new dimension and a new challenge to 
our efforts to deal with terrorism, particularly incidents in 
the United States.
    We have, as I said, appreciated very much the resources 
that we receive from the Congress, particularly from this 
committee. Going back to 1995, we have been able to double the 
number of FBI agents and support employees in the 
counterterrorism program. We have done this in coordination 
with our partners in the CIA. We have exchanged deputies at a 
high level between the FBI and the CIA in the counterterrorism 
areas. The Deputy Section Chief in the International Terrorism 
Section is a CIA officer who has line authority. The Deputy at 
the CIA's Counterterrorism Center is an FBI agent. We have 
conducted joint training, conferencing, and operational 
planning with the CIA. I think our counterterrorism strategies, 
particularly in the international arena, have been strengthened 
by this cooperation. I want to thank George Tenet personally, 
who has supervised much of this cooperation.
    Our goals are to improve our intelligence and information 
capabilities. The Attorney General referred to the creation of 
the Counterterrorism Center at the FBI, which is up and 
running. This center has representatives from 17 other Federal 
agencies and which is dedicated to a central collection and 
analytical point in the Federal Government for threats, 
particularly those regarding domestic terrorism.
    We have tried to improve our forensic capabilities, 
particularly with the establishment of the hazardous material 
unit in our laboratory. Two weeks ago, Mr. Chairman, this unit 
responded to the threat at the B'nai B'rith here in Washington, 
DC. This threat turned out to be a hoax threat but at the time 
was taken very seriously. We are developing other 
infrastructure capabilities and assessments on both an interim 
and long-term basis. We are striving in this regard to grow in 
a coordinated fashion with our State and local partners. These 
partners need not only our training, which this committee has 
authorized, but the coordination of intelligence and joint 
operations when it is appropriate.

                           PREPARED STATEMENT

    In conclusion, both with respect to the traditional 
terrorism threats and the new ones which now present 
themselves, the tremendous support which the Congress, and 
particularly this committee has provided is being put to good 
use, to coordinated use, and we very much appreciate your 
support with continuing contributions in this regard.
    Chairman Stevens. Thank you very much, Mr. Director.
    [The statement follows:]


                  Prepared Statement of Louis J. Freeh

    Good afternoon, Mr. Chairman and members of the committee. I 
welcome this opportunity to discuss the policy of the administration on 
counterterrorism, to describe the threat of terrorism in the United 
States, and to bring you up-to-date on how the FBI is using the 
counterterrorism resources Congress has provided over the past several 
years to address this problem.


                            ACKNOWLEDGMENTS

    At the very outset, I want to recognize the early leadership that 
Senators Gregg and Hollings, along with the other members of the 
committee, have exhibited in this critical area. Their efforts, 
initially in the Senate mark-up of the 1997 Justice Appropriations Act 
and then in the conference agreement for the Omnibus Appropriations 
Act, provided the FBI with $133.9 million in new funding as part of a 
comprehensive counterterrorism initiative.
    On behalf of the men and women of the FBI, especially those who 
work tirelessly toward protecting the American people against the 
threat of terrorism, I wish to thank you for your support. I am 
confident that our efforts will justify your past commitment and 
continued support to this important area of the FBI's responsibility.

                   UNITED STATES POLICY ON TERRORISM

    The protection of our nation and its people against the threat of 
terrorism, by individuals and groups operating from home and abroad, is 
one of the highest priorities of the administration. As a nation, we 
must stand firm in our resolve against terrorism. We must not allow 
those who would resort to acts of terrorism to succeed in influencing 
the policies and actions of our government and tearing apart the very 
fabric of American society.
    The government's policy to fight terrorism is articulated in 
Presidential Decision Directive (PDD) 39, ``U.S. Policy on 
Counterterrorism.'' this policy, signed by President Clinton on June 
21, 1995, makes it clear that the national policy of the United States 
is to regard acts of terrorism as both a threat to national security 
and a criminal act, and to respond vigorously to all such acts on our 
territory or against our citizens wherever they occur.
    The United States is also committed to strengthening the ability of 
the international community to prevent acts of terrorism before they 
occur and to respond more effectively to acts of terrorism when they do 
occur.
    Just recently, the Attorney General submitted to the House and 
Senate Appropriations Committees the administration's comprehensive 
counterterrorism strategy that was requested by Senate Report 104-353. 
This plan builds upon the foundations and responsibilities articulated 
in PDD-39.

                   FOUR MAJOR CORNERSTONES OF POLICY

    There are four major cornerstones through which the government's 
policy on terrorism is to be implemented. These are: to reduce the 
vulnerabilities of the United States to terrorism; to deter terrorist 
acts before they occur; to respond to terrorist acts that do occur, 
including apprehension and punishment of terrorists and management of 
the consequences of terrorist acts; and to develop effective 
capabilities address the threat posed by nuclear, chemical, or 
biological materials or weapons.
    Within the scope of these four cornerstones, the roles and 
responsibilities of the many agencies involved in the government's 
counterterrorism effort are articulated. Interagency coordination and 
cooperation are key factors underlying the principles upon which the 
government's policy is built and are the path to its success.

                     NATURE OF THE TERRORIST THREAT

    Based upon this policy of treating terrorists as criminals and 
applying the rule of law, the United States is one of the most visible 
and effective forces in identifying, locating, and apprehending 
terrorists here and overseas. At the same time, this policy invites the 
possibility of reprisals. To help put this into perspective, I would 
like to discuss the nature of the terrorist threat--both international 
and domestic--that our nation faces today.

                     INTERNATIONAL TERRORIST THREAT

    International terrorism against the United States is that which is 
foreign based and/or directed by countries or groups outside the United 
States, or whose activities transcend national boundaries. The threat 
posed specifically by foreign terrorists has increased in the past 
three years and will continue for the foreseeable future.
    The current international terrorist threat to the United States 
government, its people, and its interests can be divided into three 
major categories: (1) state sponsors of international terrorism, (2) 
formalized terrorist groups, and (3) loosely-affiliated international 
Islamic extremists.

                       STATE-SPONSORED TERRORISM

    The first major threat to Americans comes from state sponsors of 
international terrorism. State sponsors include Iran, Iraq, Syria, 
Sudan, Libya, Cuba, and North Korea. In recent years, terrorist 
activities by Cuba and North Korea appear to have declined, due 
primarily to the deteriorating economic situations in both countries. 
However, the activities of Iran, Iraq, Syria, Sudan, and Libya have 
continued.
    These state sponsors continue to view terrorism as a tool of 
foreign policy. Past activities included direct terrorist support and 
operations by official state agents. Following successful 
investigations which have identified the activities of state agents 
involved in terrorism, state sponsors now generally seek to conceal 
their support of terrorism by relying on surrogates to conduct actual 
operations.
    State sponsors, however, continue to remain engaged in anti-western 
terrorist activities by funding, organizing, networking, and providing 
other support and instruction to many extremists. A classic example of 
state sponsored terrorism was the attack on Pan Am Flight 103 in 1988, 
which killed 270 people. Two Libyan intelligence operatives, Lamen 
Fhimah and Abdel Al-Megrahi, were indicted for their role in the 
attack.

                      FORMALIZED EXTREMIST GROUPS

    The second major international terrorist threat to the United 
States is posed by formalized extremist groups. These autonomous 
organizations have their own infrastructures, personnel, financial 
arrangements, and training facilities. They are able to plan and mount 
terrorist campaigns overseas, and support terrorist operations inside 
the United States.
    Extremist groups such as Lebanese Hizballah, the Egyptian Al-Gamat 
Al-Islamiyya, and the Palestinian Hamas have placed supporters inside 
the United States who could be used to support an act of terrorism 
here. Hizballah is one of the most dangerous of these groups.
    Hizballah has staged numerous anti-United States terrorist attacks, 
including the suicide truck-bombing of the United States Embassy and 
the United States Marine Corps barracks in Lebanon in 1983 and the 
United States Embassy annex in Lebanon in 1984. Elements of the group 
were also responsible for the kidnaping and detention of United States 
hostages in Lebanon.

                 INTERNATIONAL RADICAL FUNDAMENTALISTS

   The final major international terrorist threat to the United States 
stems from loosely-affiliated Islamic terrorists, such as the World 
Trade Center bombers and Ramzi Ahmed Yousef. These extremists are 
neither surrogates of, nor strongly influenced by, any one nation. They 
have the ability to tap into a variety of official and private resource 
bases in order to facilitate terrorist acts against United States 
interests.
    Loosely-affiliated extremists may pose the most urgent 
international terrorist threat to the United States at this time since 
they are relatively unknown to law enforcement. They have the ability 
to travel freely, obtain a variety of identities, and recruit like-
minded sympathizers from various countries and/or factions.
    Some of these extremists in the United States are developing or 
experimenting with advanced communications, electronic mail, and the 
internet. For example, supporters of Shayke Omar Abdel Rahman solicited 
monies for his defense through the internet during his trial for the 
planned multiple attacks against New York City landmarks and United 
States government facilities.

                   REVOLUTIONARY AND INSURGENT GROUPS

    Revolutionary and insurgent groups continue to operate in South and 
Central America and other locations. These groups have been responsible 
for kidnapings of American business representatives, religious 
missionaries, and tourists, as well as other crimes. However, at this 
time, it does not appear that these groups represent a major 
international terrorist threat to the United States government or its 
interests.

                       DOMESTIC TERRORISM THREAT

    Domestic terrorist groups are those which are based and which 
operate entirely within the United States, or its territories, and 
whose activities are directed at elements of the United States 
government or its civilian population. The threat posed by domestic 
terrorist groups has remained significant over the past several years. 
Domestic terrorist groups represent interests spanning the full 
political spectrum, as well as social issues and concerns. FBI 
investigations of domestic terrorist groups are not predicated upon 
social or political beliefs; rather, they are based upon planned or 
actual criminal activity.
    The current domestic terrorist threat primarily comes from right-
wing extremist groups, militia groups, Puerto Rican terrorist groups, 
and special interest groups.

                      RIGHT-WING EXTREMIST GROUPS

    A basic philosophical tenet of many right-wing extremist groups is 
a belief in the superiority of the white race and that blacks, Jews, 
and other ethnic minorities are inferior racially, mentally, 
physically, and spiritually. Much of their philosophy flows from a 
racist, anti-semitic religion known as ``Christian Identity.'' 
Christian Identity teaches that white non-Jews are God's chosen race 
and that Jews are the offspring of satan.
    Many right-wing extremist groups also espouse anti-government 
sentiments. These groups refer to the federal government as the Zionist 
Occupation government and claim that it is controlled by Jewish 
interests. A number of right-wing groups also believe that the federal 
government is bent on stripping constitutional rights from individual 
citizens of the United States.
    In an attempt to live apart from ``inferior people,'' some right-
wing groups advocate creating a separate nation from the five states 
comprising the northwest region of the United States--Washington, 
Oregon, Idaho, Montana, and Wyoming.
    Right-wing extremist groups believe that either an economic and/or 
social collapse which will bring about the biblical Armageddon is 
imminent. Therefore, they routinely engage in survivalist and/or 
paramilitary training to ensure the survival of the white race and/or 
United States.
    Among the right-wing extremist groups operating in the United 
States are: the Army of Israel, the Aryan Nations, the Texas Aryan 
Brotherhood, the California Militia, the Viper Militia, the Mountaineer 
Militia, the Republic of Texas, our one supreme court, the Texas 
Constitutional Militia, the Utah Free Militia, the North Idaho Militia 
Group, and the Freemen.

                             MILITIA GROUPS

    Since 1992, the United States has experienced an exponential growth 
of militia groups. While the majority of militia members are law 
abiding citizens, there is a small percentage of members within militia 
groups who advocate and conspire to commit violent criminal acts. Of 
particular concern to the FBI is the potential for militias to be 
infiltrated by extremists who seek to exploit militias and their 
members in order to further their own terrorist agendas.
    While militia groups are often multi-racial, they are predominately 
white. They generally view themselves as ``sovereign'' citizens who are 
exempt from the laws and regulations of the United States government. 
Militia members often subscribe to the theory that the federal 
government is in a conspiracy with the United Nations that would result 
in the creation of a one-nation world government, or new world order. 
This one-world government would use foreign troops in the United States 
to seize all privately owned weapons and imprison and execute patriotic 
militia members.
    Many militia groups advocate stockpiling weapons and explosives and 
conducting paramilitary training as part of their preparation for what 
they believe will be an inevitable armed conflict with the government. 
Some militia groups openly advocate the overthrow of the federal 
government.
    Militia members and cells are engaged in a wide variety of criminal 
activity, such as the illegal sale and purchase of automatic weapons, 
issuing threats against federal and elected officials, the illegal 
transportation of explosives, bombings, destruction of government 
property, and the filing of spurious lawsuits designed to harass law 
enforcement, elected officials, and others, as well as to disrupt the 
courts. Some militia members engage in fraudulent financial schemes to 
raise funds. Others have committed armed robberies of banks and armored 
cars.
    I want to emphasize, again, that FBI investigations of militia 
groups are predicated upon violations of federal law and are not based 
upon members lawful exercise of their first or second amendment rights.

                     PUERTO RICAN TERRORIST GROUPS

    Although the last terrorist incident involving Puerto Rican 
terrorist groups was a bombing in Chicago in December 1992, these 
groups continue to be of concern. Between 1982 and 1994, approximately 
44 percent of the terrorist incidents committed in the United States 
and its territories are attributed to Puerto Rican terrorist groups. 
Efforts are continuing to locate fugitives still at large from these 
incidents. Further, several incarcerated members of Puerto Rican 
terrorist groups are due to be released from prison in 1998.
    Puerto Rican terrorist groups believe the liberation of Puerto Rico 
from the United States justifies the use of violence to obtain that 
objective. These groups characterize their terrorism activities as 
``acts of war'' against invading forces and, when arrested, they 
consider themselves to be ``prisoners of war'' who must be treated as 
such according to the Geneva Convention. Clandestine behavior and 
security are of utmost importance in these group's activities.
    Puerto Rican terrorist groups consider any act that brings funds, 
weapons, and other supplies into these organizations as justified. 
Among the acts committed by these groups are murders, armed robberies 
of banks and armored carriers, thefts of weapons, bombings of United 
States government buildings, and bombings of United States military 
facilities. These groups also target federal and local government 
officials.
    The EPB-Macheteros has been the most active and violent of the 
Puerto Rico-based terrorist groups since it emerged in 1978. The FALN 
(Armed Forces for Puerto Rican National Liberation) is a clandestine 
terrorist group based in Chicago which emerged in the 1970's. The MLN 
(Movement of National Liberation) is the ``above ground'' support group 
and political arm of the FALN. The MLN is the major fundraiser for the 
FALN. Among the business ventures operated by the MLN are a bakery and 
a newspaper.

                   SPECIAL INTEREST TERRORIST GROUPS

    Special interest terrorist groups engage in criminal activity to 
bring about specific, narrowly-focused social or political changes. 
They differ from more traditional domestic terrorist groups which seek 
more wide-ranging political changes. It is the willingness to commit 
criminal acts that separates special interest terrorist groups from 
other law-abiding groups that often support the same popular issues. By 
committing criminal acts, these terrorists believe that they can force 
various segments of society to change attitudes about issues considered 
important to them.
    The existence of these types of groups often does not come to law 
enforcement attention until after an act is committed and the 
individual or group leaves a claim of responsibility. Membership in a 
group may be limited to a very small number of co-conspirators or 
associates. Consequently, acts committed by special interest terrorists 
present unique challenges to the FBI and other law enforcement. 
Unfortunately, these types of terrorist acts are growing more 
prevalent.
    An example of special interest terrorist activity is the February 
2, 1992, arson of the mink research facility at Michigan State 
University. Rodney Coronado, a member of the Animal Liberation Front, 
pled guilty to arson charges on July 3, 1995. The Animal Liberation 
Front is a militant animal rights group founded in England in 1976.
    Assessing the capabilities of international and domestic terrorist 
groups to inflict harm on American citizens and the United States 
government is critical to developing the capabilities and strategies 
needed to implement the four cornerstones that are embodied by PDD-39.

                     FBI ROLES AND RESPONSIBILITIES

    As I stated earlier, PDD-39 establishes the roles and 
responsibilities for the many government agencies that are involved in 
the government's counterterrorism response. PDD-39 defines these roles 
and responsibilities within the context of the four cornerstones 
through which the government's policy on terrorism is to be 
implemented. In many instances, PDD-39 reaffirmed roles and 
responsibilities set out in earlier executive orders and by federal 
statutes.
    PDD-39 also established new roles and responsibilities based on the 
assessment of the current terrorism threat to the United States, 
especially in light of the dramatic changes resulting from the 
dissolution of the former Soviet Union and the communist bloc. It is 
within this framework that I would like to talk about the FBI's 
counterterrorism roles and responsibilities.

                      REDUCING OUR VULNERABILITIES

    In general, PDD-39 confers upon the heads of all executive branch 
departments and agencies the responsibility of ensuring that their 
personnel and facilities, and the people and facilities within their 
jurisdiction, are fully protected against terrorism. As lead 
investigative agency, PDD-39 confers upon the FBI responsibility for 
reducing vulnerabilities by an expanded counterterrorism program.
    PDD-39 further directed the Attorney General, in her role as the 
chief law enforcement officer, to chair a Cabinet committee to review 
the vulnerability to terrorism of government facilities in the United 
States and the nation's critical infrastructure. She was also directed 
to make recommendations to the President and the appropriate Cabinet 
member or agency head regarding the findings of the committee.
    In response to this tasking, the Attorney General established the 
critical infrastructure working group which included representatives 
from the Department of Defense and the intelligence community. The 
group identified eight national critical infrastructures: 
telecommunications, transportation, emergency services, banking and 
finance, electrical power systems, water supply systems, gas/oil 
storage and transportation, and continuity of government. The group 
also identified two categories of threat to these infrastructures--
physical and cyber.
    In July 1996, the President issued an executive order on critical 
infrastructure protection that established the President's Commission 
on Critical Infrastructure Protection. The order also established an 
interim infrastructure protection task force. The purpose of the task 
force is to identify and improve coordination of existing 
infrastructure protection efforts throughout the government until the 
completion or development of a comprehensive national policy and 
strategy for critical infrastructure protection. The FBI was selected 
to chair the task force. The Commission oversees the work of the task 
force.

                          DETERRING TERRORISM

    The United States government seeks to deter terrorism through 
public diplomacy, by reducing terrorist capabilities at home and 
abroad, and by seeking the return of indicted terrorists to the United 
States for prosecution.

                        RESPONDING TO TERRORISM

    To develop and coordinate the government's response to 
international and domestic terrorism, the President has established 
lead agency responsibilities among the various departments of the 
executive branch.
    The President reaffirmed the Department of Justice as the overall 
lead agency domestically. In addition to being responsible for the 
prosecution of terrorists that violate United States law, the 
department is responsible for the development and implementation of 
policies addressing domestic terrorism. For foreign incidents, the 
Department of State is the lead agency.
    The President reaffirmed the FBI as the lead agency for 
investigating terrorist acts planned or carried out by foreign or 
domestic terrorist groups in the United States or which are directed at 
United States citizens or institutions abroad.
    Effective response and coordination obviously requires good 
interagency support coordination. The PDD directed the establishment of 
rapidly deployable interagency emergency support teams to respond to 
terrorist incidents. The Department of State is given responsibility 
for leading and managing the foreign emergency support team in foreign 
incidents. The FBI is designated as being responsible for the domestic 
emergency support team in domestic incidents. Both teams are to include 
modules for specific types of incidents, such as nuclear, biological, 
or chemical threats.
    Other responsibilities of the FBI, consistent with its existing 
authorities, are to collect, analyze, and disseminate intelligence on 
terrorist groups and activities, and to disseminate internal threat 
warnings. Finally, to facilitate intelligence community and law 
enforcement cooperation, the FBI has been directed to establish a 
domestic counterterrorism center.

                      WEAPONS OF MASS DESTRUCTION

    The acquisition, proliferation, threatened or actual use of weapons 
of mass destruction by a terrorist group or individuals constitutes one 
of the gravest threats to the United States. The government's policy 
recognizes that there is no higher priority than preventing the 
acquisition of this capability or removing this capability from 
terrorist groups potentially opposed to the United States.
    The FBI is working closely with the Department of Defense to carry 
out other authorized weapons of mass destruction programs, such as 
Nunn-Lugar. We are actively undertaking initiatives to employ all 
necessary measures, assets, and resources to achieve these objectives.
    During the past year, the FBI has implemented several new 
initiatives to meet this challenge. These initiatives are not conducted 
in a unilateral manner, but with the FBI working with many other United 
States government agencies and state and local agencies to coordinate 
crisis and consequence management.
    These initiatives involve the FBI's role in the interagency 
community to assist in the training of law enforcement and emergency 
responders throughout the United States; to issue and update 
contingency plans for FBI field offices and other crisis management 
agencies; to participate in interagency exercises; to create the 
domestic emergency support team; and to implement the joint Department 
of Defense/FBI international training initiative in the former Soviet 
Union.

                       SPECIAL EVENTS MANAGEMENT

    The FBI plays a major role in the intelligence and security 
planning for many special events occurring within the United States, 
such as the 1996 Atlanta Olympics, the Democratic and Republican 
National Conventions, and Presidential Inauguration.
    These events routinely receive a high degree of visibility both 
domestically and internationally. As such, these events represent 
potential targets for acts of terrorism in which the resulting 
consequences could cause significant harm to either United States 
national interests or international political stability.

                       COUNTERTERRORISM RESOURCES

    PDD-39, as well as other executive orders and federal statutes, has 
served as the blueprint for developing the various counterterrorism 
initiatives and funding proposals that have been generously supported 
by the committee. In developing these initiatives, I have sought to 
address not only counterterrorism investigative requirements, but also 
certain critical infrastructure capabilities of the FBI that allow our 
investigators and analysts to perform their jobs. Establishing and 
maintaining an effective counterterrorism capability within the FBI 
requires a careful balance between investigative resources and related 
information, technology, and forensic support services.
                   1995 counterterrorism supplemental
    In the aftermath of the April 1995 bombing of the Murrah Federal 
Building in Oklahoma City, the administration submitted a supplemental 
budget request for the FBI to enhance domestic terrorism capabilities. 
Congress responded by enacting a 1995 supplemental appropriation that 
provided 427 support positions and $77.1 million to the FBI. Among the 
items funded by Congress were several major, multi-year projects, such 
as the upgrading of FBI command center capabilities.
    The FBI has filled all of these 427 support positions; 425 
employees are on board and 2 have been provided appointment letters. 
Among these new positions were 190 special surveillance group staff, 25 
analysts for the counterterrorism center, 75 intelligence research 
specialists, 50 police officers, 69 technical staff, and 18 field 
clerical staff.
    We have obligated $54.8 million of the 1995 supplemental funding, 
as of March 31, 1997. Recently, the House and Senate Appropriations 
Committees cleared the FBI's request to use $7.5 million of the 
remaining unobligated funds for the computer investigation and 
infrastructure threat assessment center, as well as initiatives related 
to the infrastructure protection task force. The largest amount of 
unobligated funds is for the renovation and upgrading of the FBI 
command center, which is a multi-year project scheduled for completion 
in 1998.

                    1996 COUNTERTERRORISM INITIATIVE

    Congress provided the FBI with $158.8 million in 1996 for 
counterterrorism activities, including 222 new positions. We have hired 
209 individuals, including all 131 agents and 78 of 91 support staff.
    Of the $158.8 million provided, $89.5 million has been obligated as 
of March 31, 1997. The remaining unobligated 1996 counterterrorism 
amendment funding consists of no-year construction and violent crime 
reduction funds for several major, multi-year initiatives, primarily 
the construction of a new FBI laboratory facility and the FBI command 
center.
    The FBI has selected a site for the new facility at the FBI Academy 
in Quantico, Virginia. We expect to begin site preparation later this 
summer. Funding was also provided for a multi-year modernization of 
laboratory equipment and to acquire equipment for evidence response 
teams in FBI field offices.
    The 1996 appropriation also included the remainder of the funding 
planned for the FBI command center project, as well as funding to 
support FBI digital telephony and tactical operations programs. These 
latter two programs are critical to maintaining our technical 
capabilities in counterterrorism matters. These are long-term programs 
that will allow us to keep pace with changing technologies.

                    1997 COUNTERTERRORISM INITIATIVE

    As I mentioned earlier, Congress provided the FBI with $133.9 
million in new counterterrorism resources in the 1997 appropriations. 
This funding will allow us to assign 644 additional agents and 620 
support employees to support our counterterrorism programs, FBI 
laboratory, critical incident response group, and service operations.
    Most of the new agents and support positions are allowing us to 
double the ``shoe-leather'' for counterterrorism investigations so that 
we can address emerging domestic and international terrorist groups, 
establish an investigative capability for chemical/biological/nuclear 
incidents, identify key assets and conduct infrastructure vulnerability 
assessments. Each of these areas directly supports the four major 
cornerstones of the government's counterterrorism policy.
    We are also expanding the number of joint terrorism task forces 
that have proven to be extremely valuable in facilitating cooperation 
among federal, state, and local law enforcement.
    To support our expanded field counterterrorism efforts, Congress 
also funded improvements for FBI information and intelligence 
capabilities. We are establishing our computer investigation and 
infrastructure threat assessment center (CITAC) at FBI headquarters to 
serve as a resource for investigations of computer crimes and attempts 
to disrupt or disable the national information infrastructure. We are 
implementing a plan to improve our language translation capabilities, 
particularly in the areas of FARSI and Arabic.
    We are acquiring computers that will provide us access to 
classified intelligence computer networks and databases so that we can 
exchange information with our partners and access their data. Efforts 
are underway to update the database of key asset information. We are 
strengthening state and local law enforcement involvement with our 
counterterrorism center.
    To improve forensics and crisis management capabilities, Congress 
provided funding to establish a hazardous materials response capability 
within the FBI laboratory so that we can fulfill our role in terrorist 
incidents where chemical or biological agents or nuclear materials are 
suspected or involved. Funding was also provided to upgrade the 
training provided to federal, state, and local law enforcement, 
firefighter, and public safety officers through the FBI's hazardous 
response school at Redstone Arsenal, Alabama. We are developing a 
capability to exchange forensic information with other foreign 
governments so that we can improve our ability to link terrorist 
incidents and identify persons responsible for terrorist acts.
    We are implementing a crisis management program that provides 
training to senior law enforcement managers, including the Attorney 
General, top Department of Justice officials, FBI special agents in 
charge, and others, who are key decision-makers in the management and 
resolution of a hostage-taking incident, a terrorist act, a prison 
siege, or other crisis situation. Our crisis management program also 
assists in the planning and conducting of training exercises that 
assess the readiness of federal agencies, state and local government, 
and others in responding to a chemical and biological incidents or 
other similar threats.
    Finally, to provide a more secure work environment, Congress 
provided funding to acquire physical security equipment for FBI 
offices, such as x-ray machines, magnetometers, and closed-circuit 
television systems; to hire contract guard and security for field 
offices and the FBI Academy; and to add additional police officers to 
protect our new Washington, D.C. field office. These physical security 
upgrades are consistent with the measures recommended in the 
vulnerability assessment of federal facilities that was mandated after 
the Oklahoma City bombing.

                        1998 PRESIDENT'S BUDGET

    The 1998 budget request to Congress includes $83.3 million to fully 
fund the new counterterrorism positions provided by the Congress in the 
1997 appropriations act. Most of this funding is for personnel 
compensation of agent and support staff.
    Additionally, within our technology crimes initiative, an increase 
of $5.9 million is proposed to fund the operations of the CITAC. 
Initial funding for the CITAC was provided as part of the 
counterterrorism initiative in the 1997 appropriations act. CITAC 
supports both criminal and national security investigations. This 
additional funding is needed for contractor support services, technical 
equipment, training, and operational travel. The 1998 budget also 
proposes 56 positions (34 agents) and $5.9 million for computer crime 
investigations.
    The dual threats that the CITAC addresses are among the most 
challenging and dynamic problems that the FBI must address in meeting 
its national security and criminal missions. Illegal electronic 
intrusion into computer networks is a rapidly escalating crime and 
security problem. In addition to terrorists, white-collar criminals, 
economic espionage agents, organized crime groups, and foreign 
intelligence agents have been identified as ``electronic intruders'' 
responsible for penetrations of American computer systems and networks.
    The United States government relies upon the national information 
infrastructure for the efficient, uninterrupted flow of electronic 
information for air traffic control, military communications, energy 
distribution, public safety, and other essential government programs 
and services. Intelligence and industry forecasts indicate the United 
States is just beginning to realize the potentially damaging effects 
and extent of the computer crime problem.

                               CONCLUSION

    The dynamic nature of the counterterrorism threat to the United 
States is a significant challenge to the FBI, as well as all of the 
other federal, state, and local agencies involved in combating 
terrorism. PDD-39 clearly articulates the policy of the United States 
towards terrorism, identifies the major underpinnings of this policy, 
and designates roles for federal agencies.
    Consistent with this overall statement of policy, and with the 
resources you have provided us, the FBI is developing and implementing 
a comprehensive counterterrorism strategy. Our success in achieving our 
goals and objectives in thwarting international and domestic terrorism 
will depend, in part, upon the continued support of the Congress. I am 
hopeful that we will be able to enjoy the continued support of Congress 
as we work toward achieving our counterterrorism goals and objectives.
    I strongly believe that the American people expect the FBI to do 
its best to, first prevent acts of terrorism from happening, and two, 
to effectively respond to and investigate those acts of terrorism that 
are committed so that the persons responsible for such heinous crimes 
are prosecuted to the fullest extent of the law. I know that with the 
committee's continued support, the FBI will be able to meet the 
challenge of terrorism in the United States.
    That concludes my prepared remarks. I would like to respond to any 
questions at this time.

                      CENTRAL INTELLIGENCE AGENCY

STATEMENT OF GEORGE J. TENET, ACTING DIRECTOR

    Chairman Stevens. Mr. Tenet.
    Mr. Tenet. Mr. Chairman, let me tell you what we face when 
we attack this terrorist target. First, terrorists, as we know, 
guard their tactics, methods, and objectives more assiduously 
than any of the other targets we pursue. Second, international 
terrorists are extending their geographic reach around the 
world, including the United States. I refer here to operations 
such as the World Trade Center bombing, attacks against Israeli 
targets in South America, the truck bomb that killed 19 United 
States service personnel at Khobar Towers in Saudi Arabia, and 
the murder of 2 CIA employees outside of our own front gates.
    Terrorists are developing increasingly complex ways to 
support their operations. Frequently they use multiple front 
companies or nongovernmental organizations to disguise their 
operations, and they have the means to move money, materiel, 
and manpower around the world.
    Finally, international terrorists are turning to even more 
sophisticated methods of attack. We saw this in the Aum 
Shinrikyo use of nerve gas against commuters in the Tokyo 
subway 2 years ago. Potential terrorist use of chemical, 
biological, or other such weapons on a wider scale must become 
one of our highest priority concerns.
    As this snapshot makes clear, Mr. Chairman, our task is not 
just to unveil terrorist secrets, it is to stay a step ahead of 
the terrorist, who is constantly on the move and constantly 
seeking more advanced methods.
    Mr. Chairman, let me review for you some key aspects of our 
approach. Counterterrorism has been a subject of concentrated 
and focused effort by the intelligence community ever since the 
DCI Counterterrorist Center, or CTC, was established in 1986 by 
DCI Casey. CTC is not only the center of intelligence work on 
terrorism, it also embodies the effective interagency 
cooperation that is vital to counterterrorism. It includes 
personnel from CIA as well as 11 other departments and 
agencies. The components represented include intelligence 
agencies, such as DIA and NSA, law enforcement, such as the FBI 
and Secret Service, and policymaking agencies such as the 
Department of State. One of the two deputies, as Judge Freeh 
pointed out, of CTC is a senior FBI officer.
    By pulling all of these elements together, the 
Counterterrorist Center creates a whole that is greater than 
the sum of its parts. It harnesses all of the operational, 
analytical, and technical elements devoted to counterterrorism. 
The results through the years point to the soundness of this 
idea. The successes of this approach range from the uncovering 
of Libya's role in the bombing of Pan Am 103 to the thwarting 
of Ramzi Yousef's attempt to blow a dozen United States 
airliners out of the sky in the Far East during 1995. Moreover, 
CTC has worked with the State Department to provide extensive 
counterterrorist training to our allies. Over 18,000 
individuals in 50 nations have been trained in counterterrorism 
over the past decade.
    We are enhancing the capabilities, Mr. Chairman, of CTC and 
other intelligence community elements with new counterterrorist 
initiatives launched during the past year with your help. They 
touch upon each of the things we do in counterterrorism, 
including human and technical collection of intelligence, 
analysis, warning, and response. We have created a new 
terrorism warning group whose sole mission is to make sure 
civilian and military leaders are alerted to specific terrorist 
threats. We have created additional all-source analytical 
positions to improve our indepth understanding of terrorist 
groups. We have expanded technical collection operations so 
that we can stay ahead of the terrorists' own improvements in 
their communications and use of other technologies. And we are 
expanding our human intelligence operations, including a 
substantial increase in CIA operations officers working 
overseas against the terrorism problem.
    The intelligence on terrorism, Mr. Chairman, that we 
provide to our sister agencies ranges from the warning 
information I just mentioned to intelligence on the behavior of 
state sponsors of terrorism. The latter supports the Department 
of State's diplomatic efforts to bring the policies of our 
allies toward certain state sponsors of terrorism into harmony 
with U.S. policy.
    We also assess the capabilities and the willingness, where 
that is an issue, of other States to combat terrorism. And we 
collect and assess information on terrorists' tactics and 
techniques, what they might use against us in any attack today, 
and what we are likely to face from them in the future. In this 
regard we work very closely with other agencies, such as the 
Secret Service and the Federal Aviation Administration, that 
are responsible for security countermeasures designed to 
protect specific individuals or facilities.
    Let me put special emphasis, Mr. Chairman, on our support 
to law enforcement, particularly the Federal Bureau of 
Investigation. Intelligence performs three important functions 
in assisting law enforcement agencies in applying the rule of 
law to international terrorists. Intelligence on individual 
terrorists has, on numerous occasions, prevented a terrorist 
from reaching our shores or, upon reaching it, has enabled the 
Immigration and Naturalization Service to stop the person. 
Intelligence supports criminal investigations that determine 
the culpability for terrorist acts. It does so by using our 
foreign intelligence resources to assist the FBI in following 
up any lead that points overseas. As I mentioned, it was 
intelligence that uncovered Libya's role in the Pan Am 103 
bombing, and it was intelligence from CIA and the FBI that 
uncovered the Iraqi attempt to assassinate President Bush in 
Kuwait in 1993.
    Finally, intelligence assists the FBI in finding terrorists 
who are hiding abroad. No intelligence officer will ever have 
the direct satisfaction of putting handcuffs on a fugitive, 
because that is not part of our charter. But on eight occasions 
since 1993, CTC has provided pivotal assistance to law 
enforcement officials in rendering foreign terrorists into U.S. 
hands for prosecution in U.S. courts.
    Our assistance to law enforcement, Mr. Chairman, extends 
not only to U.S. law enforcement agencies, but to foreign ones 
as well. We have numerous counterterrorist partnerships with 
foreign intelligence, security, and police services. These 
liaison relationships are a major source of information and 
insight to us. In return, we can assist foreign authorities in 
bringing a fugitive terrorist to justice. We have done so five 
times in the last 3 years.
    In all of these activities, Mr. Chairman, we are guided by 
one overarching strategic goal, to get at the terrorists' 
activities as early as possible in the cycle of terrorist 
planning and preparation. Ultimately, our goal must be to 
increase the President's options for dealing with terrorists, 
to provide not only the intelligence required to retaliate 
against them, but also the intelligence needed to prevent and 
disrupt their operations before danger turns to disaster. 
Working in close partnerships with our colleagues in law 
enforcement and other parts of the Government, we are making 
steady progress on these goals.

                           PREPARED STATEMENT

    I would close with a simple statement, Mr. Chairman, one 
that the Attorney General and the Director of the FBI I am sure 
share. For those who would attack the United States or its 
people, there will be no guaranteed safe haven anywhere in the 
world.
    Thank you, Mr. Chairman. We welcome your questions.
    [The statement follows:]


                 Prepared Statement of George J. Tenet

    Mr. Chairman, I am pleased to appear before the Committee to 
discuss the Intelligence Community's role in the overall U.S. strategy 
to combat terrorism. In opening let me stress three points: 
International terrorism is a major and growing national security 
concern; meeting that threat requires an integrated response by our 
diplomatic, defense, intelligence, and law enforcement agencies; 
finally, intelligence is vital to this effort.
    Let me tell you what we face, Mr. Chairman, in attacking the 
terrorist target.
    First, terrorists guard their tactics, methods, and objectives more 
assiduously than any of the other targets we pursue.
    Second, international terrorists are extending their geographic 
reach around the world, including to the United States. I refer here to 
terrorist operations such as: The World Trade Center bombing; attacks 
against Israeli targets in South America by Lebanese Hizballah; the 
military training center bombing in Riyadh, Saudi Arabia that killed 
five U.S. citizens; the truck bomb that killed 19 U.S. service 
personnel at Khobar Towers in Saudi Arabia; and the murder of CIA 
employees just outside our own front gates.
    Third, terrorists are developing increasingly complex ways to 
support their operations. Frequently, they use multiple front companies 
or nongovernmental organizations to disguise their operations, and they 
have the means to move money, materiel, and manpower around the world.
    Finally, international terrorists are turning to ever more 
sophisticated methods of attack. We saw this in the Aum Shinrikyo use 
of nerve gas against commuters in the Tokyo subway two years ago. 
Potential terrorist use of chemical, biological, or other such weapons 
on a wider scale must be one of our highest priority concerns.
    As this snapshot makes clear, Mr. Chairman, our task is not just to 
unveil terrorist secrets; it is to stay a step ahead of the terrorist, 
who is constantly on the move and constantly seeking more advanced 
methods.
    Now, Mr. Chairman, let me review for you some key aspects of our 
approach. Counterterrorism has been a subject of concentrated and 
focused effort by the Intelligence Community ever since the DCI 
Counterterrorist Center, or CTC, was established in 1986. CTC is not 
only the center of intelligence work on terrorism; it also embodies the 
effective interagency cooperation that is vital in counterterrorism.
    CTC includes personnel from CIA as well as eleven other departments 
and agencies.
    The components represented include intelligence agencies, such as 
DIA and NSA, law enforcement, such as the FBI and Secret Service, and 
policy-making agencies such as the State Department.
    One of the two deputy chiefs of CTC is a senior FBI officer.
    By pulling all of these elements together, the Counterterrorist 
Center creates a whole that is greater than the sum of the parts. It 
harnesses all of the operational, analytical, and technical elements 
devoted to counterterrorism.
    The results through the years point to the soundness of this idea.
    The successes of this approach range from the uncovering of Libya's 
role in the bombing of Pan Am 103 to the thwarting of Ramzi Yousef's 
attempt to blow a dozen U.S. airliners out of the sky in the Far East 
during 1995.
    Moreover, CTC has worked with the State Department to provide 
extensive counterterrorist training to our allies. Over 18,000 
individuals in 50 nations have been trained in counterterrorism over 
the past decade.
    We are enhancing the capabilities of CTC and of other Intelligence 
Community elements with new counterterrorist initiatives launched 
during the past year. These initiatives were begun by DCI Deutch and 
benefited from additional resources the Congress provided at the outset 
of the current fiscal year. They touch upon each of the things we do in 
counterterrorism, including human and technical collection of 
intelligence, analysis, warning, and response.
    For example, we have created a new Terrorism Warning Group whose 
sole mission is to make sure that civilian and military leaders are 
alerted to specific terrorist threats.
    We have created additional all-source analytical positions, to 
improve our in-depth understanding of terrorist groups.
    We have expanded technical collection operations, so that we can 
stay ahead of the terrorists' own improvements in their communications 
and use of other technologies.
    And, we are expanding our human intelligence operations, including 
a substantial increase in CIA operations officers working overseas 
against the terrorism problem.
    The intelligence on terrorism that we provide to our sister 
agencies ranges from the warning information that I just mentioned to 
intelligence on the behavior of state sponsors of terrorism. The latter 
supports the Department of State's diplomatic efforts to bring the 
policies of our allies toward certain state sponsors of terrorism into 
harmony with U.S. policy.
    We also assess the capabilities--and the willingness, where that is 
an issue--of other states to combat terrorism.
    And, we collect and assess information on terrorists' tactics and 
techniques--what they might use against us in any attack today, and 
what we are likely to face from them in the future.
    In this regard, we work very closely with other agencies, such as 
the Secret Service and the Federal Aviation Administration, that are 
responsible for security countermeasures designed to protect specific 
individuals or facilities.
    Let me put special emphasis on our support to law enforcement--
particularly the FBI. Intelligence performs three important functions 
in assisting law enforcement agencies in applying the rule of law to 
international terrorists.
    Intelligence on individual terrorists has, on numerous occasions, 
prevented a terrorist from reaching our shores--or, upon reaching it, 
has enabled the Immigration and Naturalization Service to stop the 
person.
    Intelligence supports criminal investigations that determine 
culpability for terrorist acts. It does so by using our foreign 
intelligence resources to assist the FBI in following up any lead that 
points overseas. As I mentioned, it was intelligence that uncovered 
Libya's role in the Pan Am 103 bombing. And it was intelligence from 
CIA and the FBI that uncovered the Iraqi attempt to assassinate Former 
President Bush in Kuwait in 1993.
    Finally, intelligence assists the FBI in finding terrorists who are 
hiding abroad. No intelligence officer will ever have the direct 
satisfaction of putting handcuffs on a fugitive, because that is not 
part of our charter. But on eight occasions since 1993, CTC has 
provided pivotal assistance to law enforcement officials in rendering 
foreign terrorists into U.S. hands, for prosecution in U.S. courts.
    Our assistance to law enforcement extends not only to U.S. law 
enforcement agencies, but to foreign ones as well. We have numerous 
counterterrorist partnerships with foreign intelligence, security, and 
police services. These liaison relationships are a major source of 
information and insight to us. In return, we can assist foreign 
authorities in bringing a fugitive terrorist to justice; we have done 
so five times in the last three years.
    In all these activities, we are guided by one overarching strategic 
goal; to get at the terrorists' activities as early as possible in the 
cycle of terrorist planning and preparation. Ultimately, our goal must 
be to increase the President's options for dealing with terrorists--to 
provide not only the intelligence required to retaliate against them 
but also the intelligence needed to prevent and disrupt their 
operations before danger turns to disaster. Working in close 
partnership with our colleagues in law enforcement and other parts of 
the government, we are making steady progress on these goals.
    Let me close with a simple statement that I'm sure summarizes the 
view of my colleagues here as accurately as it expresses mine: for 
those who would attack the United States or its people, there will be 
no guaranteed safe haven anywhere in the world.
    Thank you, Mr. Chairman. I would be glad to discuss these topics in 
greater detail in executive session.

    Chairman Stevens. Thank you. Of course that is what we want 
to assure. Gentlemen, could we agree on a length of time? There 
are eight of us here, and I am sure that time is not unlimited. 
We want to go to our classified room before the afternoon is 
over. Can we agree on 5 minutes of questioning apiece before we 
withdraw? Would that be acceptable? Very well.
    Let me just ask a couple of plain questions here. Madam 
Attorney General, do you believe we have adequate laws to deal 
with terrorism now? Are there any defects that you have found 
in our existing laws dealing with our ability to combat 
terrorism?

                           WORKING TECHNOLOGY

    Ms. Reno. There are some suggestions that can be made, and 
we will be happy to furnish those to you. I think the major 
effort that we have to undertake is to make sure that we have 
the expertise in technology, and with respect to weapons of 
mass destruction; that we are able to match wits with the best 
of the terrorists; that we constantly work with this committee 
to ensure that we have the necessary equipment--and you have 
been just superb in supporting us in that effort; that we 
understand the threats against our information infrastructure 
and understand what the computer and cyber tools, if you will, 
can do. This effort is going to require a close coordination 
with this committee.

     COMMUNICATIONS ASSISTANCE FOR LAW ENFORCEMENT ACTIVITY [CALEA]

    We have got to maintain our ability to pursue electronic 
surveillance according to the prescribed constitutional 
standards that we now adhere to, but we have got to have the 
wherewithal to keep up, through the funding of CALEA, with the 
development in technology and to adjust our technology to these 
new developments. We are going to have to be able to deal with 
the issue of encryption, and obviously that will be a major 
issue before Congress. These are some of the points that I 
think are important. Director Freeh might want to add more.
    Mr. Freeh. I think the overall statutory authorities are 
very strong and give the FBI the capability that we need. I 
would simply echo what the Attorney General has said. Fifty-
nine percent of all of the Federal wiretap orders relate to 
national security, either counterterrorism or foreign 
counterintelligence. In other words, 59 percent of the 
wiretaps, Federal wiretaps that are authorized, relate to 
national security. Without that capability and coverage, we 
would be out of the counterterrorism and counterintelligence 
business, as far as I am concerned.
    The CALEA funding is critical. The Congress supported that 
in 1994. We have asked for additional funding for 1998. We are 
going to have to deal with the encryption problem. It is a 
commercial issue. It is also a public safety issue. It is a 
difficult issue. We have had several hearings on it, but this 
year by all indications the Congress is going to act on that. 
If we write law enforcement and national security out of the 
encryption legislation, our job will be made very difficult and 
quite dangerous.

                                 COURTS

    Chairman Stevens. Do you believe that we need to address 
the question of the courts? Are we going to require separate 
courts to deal with the terrorist problem as it increases?
    Ms. Reno. I do not think you will require separate courts, 
other than as we have addressed it through the alien removal 
court that was authorized by Congress and that we are in the 
process of implementing. It is comparable to the FISA court, 
but I do not think that you will, in the foreseeable future, 
need separate courts to address the issue of prosecutions of 
terrorists.
    Chairman Stevens. I will keep the rest of my questions 
until we have the classified section.
    Senator Gregg.
    Senator Gregg. I would like to preface my questions with a 
comment. First, I want to thank the chairman again, and second 
I want to thank the agencies for aggressively pursuing the 
terrorism threat. But the issue remains, are we doing enough 
and are we well enough coordinated? My question is, to you as a 
group, how is it coordinated? We have got two functioning 
counterterrorism centers, one at FBI, one at CIA. We have 
literally thousands of different sources of information, and we 
have at least four major agencies that have significant turf 
responsibility here: State, Defense, Justice, and CIA. My sense 
is that although there is a lot of work toward coordination at 
the very most senior levels, but at the lower levels, there is 
not necessarily a constant interface for coordination.
    For example, Attorney General, I wonder when was the last 
time that the President convened the four major agencies to 
discuss the terrorism threat, and whether we are doing enough? 
My question, therefore, is how is coordination proceeding now, 
and is there a need for further coordination, not for the 
purposes of addressing a threat which has occurred--I believe 
we are doing well in that area to the extent that you can do 
well in that area--but for the purposes of addressing potential 
threats, such as the Director just mentioned in his comments?

                      COORDINATION AND COOPERATION

    Ms. Reno. Based on PDD-39, I think that there is excellent 
coordination underway. I would like to just take you through 
some of the steps that have been developed. You make the 
reference to the fact that there are two counterterrorism 
centers, but I would let both Director Freeh and Director Tenet 
address that issue. I think, from my discussions with them and 
with former Director Deutch, that this has, in fact, 
strengthened our capacity to detect vulnerabilities and to 
prevent terrorist acts before they occur. By the CIA's efforts 
abroad and the FBI's efforts here, we are able to interrelate 
these and bring them together. I think it has been an excellent 
example of the cooperation that is engaged in, not just in talk 
but in actual day-to-day fact. The fact that the FBI now has 
its Domestic Terrorism Center up and running with 16 agencies 
there, not just the 4, because critical to this cooperative 
effort is the Department of Defense with respect to weapons of 
mass destruction. That is underway.
    What we are trying to do is reach out, both internationally 
by marrying the two centers so that we ensure that we have 
linked any information that is relevant, but we are also trying 
to reach out to State and local law enforcement across the 
country in a comprehensive way to make sure that we get from 
them leads and tips and issues that should be pursued, and that 
it is again meshed. I think the Domestic Terrorism Center is 
doing a really good job of building that capacity.
    At the same time, we have the issue that I have addressed 
before and that you have been very responsive to, which is the 
CITAC, which goes to the issue of computer crime and how we 
coordinate in that area. We have much to do in that area. The 
whole issue with respect to cyber crime staggers the 
imagination. When you look at our commercial systems that are 
now computerized--telecommunications, transportation, banking, 
and finance, the whole system with respect to gas and oil 
structures, we have got so much to do in terms of developing 
the capacity with the private sector to prevent attack by 
identifying vulnerabilities and working as a partner with the 
private sector. That is why it is so important that we support 
the President's Commission on Critical Infrastructure 
Protection, because that Commission reaches out to the private 
sector as a critical player in this whole effort, to make sure 
that we are linked together in what we do to identify the 
vulnerability and what we do to prevent the attack.
    These are some of the efforts, but then we have developed--
and I think again both the FBI and the CIA have a threat 
warning system that permits the CIA to provide appropriate 
threat warnings for international concerns and the FBI to 
provide appropriate threat warnings for domestic concerns. I 
think that is working.
    Again, we are constantly trying to identify areas of 
weakness and build on it, and we would like to work with you in 
that regard, should you detect any.
    With respect to our response, you mentioned that we respond 
fairly well, but we are constantly trying to work on that to 
make sure that we are coordinated. The State Department has 
jurisdiction abroad for the response to a terrorist act 
affecting a U.S. citizen. The FBI has it domestically. We have 
developed FEST, which is the foreign emergency support team, 
that responds immediately, such as occurred earlier this year, 
and then we also have the domestic emergency support team that, 
for example, responded in Atlanta prior to the Olympics to 
prepare in a coordinated way with all of the agencies involved 
to address the problem before it happens, and will be 
responding in other areas where there are events or matters 
that are important and present possible vulnerabilities.
    With respect to training, we are doing so much with the 
Department of Defense in trying to develop coordinated training 
with respect to threats of weapons of mass destruction, again 
working with State and local officials. Later on Director 
Freeh, I think, can give you more details.
    So I see great coordination underway, not just in talk and 
in concept, but also in actual day-to-day operations, and we 
have got to work even harder at it.
    Senator Gregg. Director Tenet.

                               CUSTOMERS

    Mr. Tenet. Senator, one of the things I would say in 
response is the Department of Justice, the FBI, the Department 
of State, the Department of Defense are our customers. We have 
a responsibility to articulate threats to our customers, 
particularly overseas. In the aftermath of Khobar Towers one of 
the things we have found is, you are correct, there are 
thousands of strands of information that come to us. What we 
have focused on is articulating and sending back out that pipe 
the information in a way that a commander on the ground can 
differentiate between information that is actionable and that 
which is not actionable. There are real instances in the last 6 
months of either our cooperation with the Department of State 
or the FBI where we have averted bombs at two American 
Embassies at locations overseas.
    So this cooperation is, I think, quite vigorous, and the 
interaction of the policymaker with us is also quite vigorous. 
This community, this counterterrorism community is as well 
organized as any community as exists in our Government in terms 
of both the policy coordination and the action that flows from 
it. So in supporting these customers, they all have different 
needs. My job is to ensure that when we get this information it 
is packaged and disseminated in a way that they understand its 
importance and its relevance and they can act to do something 
about it, otherwise it is not very relevant to them.
    Chairman Stevens. Senator Campbell.
    Senator Campbell. Thanks, Mr. Chairman. Just maybe a couple 
of quick ones. I just day before yesterday visited Colorado 
Springs where a fire had been set to the IRS office. It was in 
a public building. There were a lot of other rentals in the 
building too, real estate agencies, a couple of computer 
companies all in the same building. I was wondering if you 
could give me just your insight on how we better protect 
Federal buildings if they are not all Federal in scope. If we 
make it, like we do here, with electronic devices before you 
can go in and out the door, that would certainly inconvenience 
all the other tenants. How should we handle that?

                           SECURITY MEASURES

    Ms. Reno. Following the events in Oklahoma City in April 
1995, we convened a group to assess the vulnerability of 
Federal structures and made recommendations to the President. 
He created a group to follow through on our recommendations 
and, as I understand it, they have made a report. I will be 
happy to provide the materials to you. There will be follow up 
now with regard to Federal agencies that are in buildings with 
other agencies, with other private sector agencies and where 
the Federal Government is not the principal tenant of the 
building. With respect to those buildings where the Government 
is the principal tenant or GSA owns it, we have tried to follow 
through in terms of improving security in those structures, and 
we will continue to work with the President's group to follow 
through.
    Senator Campbell. If you could provide at least me, or 
maybe the rest of the committee would like to see that, but I 
certainly would.
    My second question, Mr. Chairman, is maybe rather 
rhetorical, but I would like your view on it. If I, as a 
private citizen, encourage somebody, incited them to violence 
against a Federal agency or a Federal official, then I guess I 
also could be charged with a crime for inciting them to commit 
a crime. Is that right?
    Ms. Reno. Generally that would be true, but you have got to 
be very careful in terms of hypotheticals as to the what ifs.
    Senator Campbell. Well, I am thinking, you know, 
individuals to my knowledge can be held accountable if they 
encourage terrorism or if they advocate it and a crime happens 
because of it. If I went down and bought some ad space on a 
local radio show and I encouraged people to go commit an act of 
violence, I suppose I could probably be held accountable for 
that too. But if a radio show encourages violence themselves, 
apparently they cannot. I know that there is a first amendment 
right involved in there, and it is a hypothetical and all that, 
but I would like your views on that.
    I am thinking of one--this is not really an act of 
violence, it was a random crime. The man that shot up the White 
House the year before last, Duran, he had called our office 
before he did that and indicated he was going to do something 
very similar to that. We got a whole bunch of calls that same 
morning from people who were mad at Government and were really 
venting their frustrations, so we did not take it too seriously 
because we got so many calls. Probably every Senator here has 
got calls in his office from people who are angry at Government 
and they are going to get their guns and protect themselves and 
they are not going to let the new world order take over, and so 
on. This guy did it because he was encouraged by a radio show 
he had heard. I know that some radio shows have even used the 
words they should go out and shoot a fed right between the 
eyes, that kind of thing, but under our system they are pretty 
well absolved, are they not, because it is a first amendment 
right, even if they encourage those acts?
    Ms. Reno. Again, to aid and abet terrorism would be against 
the law. You would have to look at each case on a case-by-case 
basis. I would ask Director Freeh to suggest how the FBI would 
respond.

                         PROSECUTION OF CRIMES

    Mr. Freeh. A crime can certainly be predicated and 
prosecuted if it filled all the necessary elements. The blind 
sheik, Sheik Rahman, as you recall, was convicted for, among 
other things, solicitation of criminal sedition. It is an old 
statute but one which certainly has viability. There was an 
individual from Afghanistan, who encouraged, announced, and 
stated, as he has on previous occasions, that military targets 
in Saudi Arabia should be and are targets for attack, and 
solicited people to perform those attacks against our military 
personnel. That probably meets all of the elements of a 
criminal offense, and one which we would look at and prosecute 
vigorously, as we have in other cases.
    But it would depend on the circumstances. If someone is 
giving a speech or a radio announcer is going through a dialog 
which might be related to that, it does not mean that they are 
promoting criminal activity. However, you are not immunized 
from prosecution because you do it in a first amendment 
context. You cannot yell fire in a crowded theater. That is a 
crime. It would depend on the circumstances whether or not we 
would investigate and whether the Department of Justice would 
prosecute.
    Senator Campbell. You cannot yell fire in a theater, but 
you can recommend shooting Federal agents. Thanks, Mr. 
Chairman.
    Chairman Stevens. Thank you. Senator Bennett. We are 
following the early bird rule today.
    Senator Bennett. I thought Senator Hollings arrived before 
me.
    Chairman Stevens. Did he? No; I have kept track.
    Senator Bennett. Thank you, Mr. Chairman. The first issue 
that comes to mind for a Senator from Utah is clearly the 
Olympics scheduled in Utah in 2002. As good as we are, we are 
clearly not yet prepared in Utah in terms of our law 
enforcement and communications capability to handle the 
possibility of terrorists targeting the Olympics for maximum 
international exposure. So I want to thank you, Madam Attorney 
General, for your support in the past, and I hope by the thanks 
to stimulate continued support in the future, for Justice 
Department help in seeing that security issues are addressed at 
the Olympics. Mr. Chairman, we are going to come to this 
committee for appropriations help because the Olympics are a 
clear target for people all over the world.
    Would you have any comment on that and your attitude toward 
the Olympics?

                        OLYMPIC LESSONS LEARNED

    Ms. Reno. Obviously we gained a great understanding of the 
different roles that can be played through our experience in 
Atlanta. We have already had representatives of the Department 
of Justice out in Utah meeting with people who are on the scene 
and developing long-range plans with the FBI and with the other 
appropriate Federal agencies to address the concerns that I 
think arise in a situation like that, and we look forward to 
working with everybody in that effort.

                           INTERNET EXCERPTS

    Senator Bennett. We would appreciate that, and do 
appreciate your past concern. Mr. Chairman, picking up on what 
the Senator from Colorado had to say, my office has taken off 
of the Internet information that is currently available. Let me 
read to you a few excerpts from this information targeting mink 
farms.
    It says:

    Economic sabotage is what they listen to. There are various 
types of actions that are very simple, smashing windows, 
squirting super glue into the locks, spray painting, filling 
bell peppers or Christmas ornaments with paint and paint 
bombing the building. To be effective, a place should be hit 
repeatedly. Just be careful and vary your schedule so that the 
police are not waiting for you when you go back.

    Next page:

    Fire is a tool. It can be your friend if you respect its 
power or your foe if you do not. Nothing does the amount of 
damage that fire can. Try doing $1 million damage with only 
hand tools. Arson also has no statute of limitations. It is a 
very serious crime. If you get caught you could spend the next 
several years in prison thinking about what went wrong. Be sure 
that you follow all the security precautions vigorously. Here 
is how to build a simple incendiary device that can be used for 
burning both buildings and vehicles, followed with very careful 
instructions. Tip, arson is a big time felony, so wear gloves 
and old clothes that you can throw away through the entire 
process, and be very careful not to leave a single shred of 
evidence.

    It goes on and on. There is a section on electrically timed 
incendiary devices. The thing that concerns me the most is that 
at the end of this document, the following list of targets has 
been compiled from numerous different sources. The majority of 
the targets on this list are in my State. I am talking about 
the Animal Liberation Front that currently takes credit 
publicly for over 700 acts of violence against mink farmers and 
others involved in the legal fur trade. The Salt Lake 
newspapers have done a profile on this to describe how they 
attack these commercial enterprises and how they are starting 
to hire street gangs to do it for them so as to remove them one 
step away.
    I would like to ask you, Director Freeh, do you see any 
difference between bombing a black church or bombing an 
abortion clinic or bombing a fur farming operation?
    Mr. Freeh. No; I do not. I think anytime someone is 
achieving any perceived agenda with bombs and violence, they 
are clearly violating Federal laws as well as probably State 
and local laws.
    Senator Bennett. I would ask you, following up on what the 
Senator from Colorado raised on this issue of free speech, to 
plug into the Internet and see if there is not some indication 
that pretty clear terrorist activity is not only being 
encouraged but instructed with this kind of specifics as to how 
to build a fire bomb, where to place it for maximum damage, and 
so on, and then a list of targets as to where to go to find 
people that should be subjected to this kind of thing. I would 
hope the FBI would focus on that.
    Mr. Freeh. Yes, Sir.

                                INTERNET

    Ms. Reno. Senator, in that regard we have submitted a 
report as Congress has required with respect to such 
information on the Internet, and we would look forward to 
working with you in terms of legislation. I will ask that my 
staff brief you on whatever is appropriate for a briefing with 
respect to this matter.
    Senator Bennett. I thank you. I almost did not raise it in 
open session, keeping it for the closed session, because I do 
not want to give any more publicity to it than it has already 
had. But I decided that the people that would want it already 
have it, and maybe the best thing to do to combat it is to 
raise it in open session so that we can have this kind of 
cooperation.
    Thank you, Mr. Chairman.

                PREPARED STATEMENT OF MADELINE ALBRIGHT

    Chairman Stevens. We would all welcome that information, 
Madam Attorney General. I state for the record that Secretary 
of State Madeline Albright has requested an opportunity to 
submit testimony for the record, and we would be pleased to 
receive her testimony. We are also willing to receive 
additional statements from those who are involved in the 
intelligence and law enforcement community with regard to this 
hearing.
    [The statement follows:]

     Prepared Statement of Madeleine Albright, Secretary of State, 
                          Department of State

    Mr. Chairman, Members of the Committee: Thank you for the 
opportunity to submit this Statement for the Record to provide a brief 
overview of U.S. policy toward international terrorism and the role of 
the Department of State in coordinating U.S. policy and activities to 
counter the threat.
    Although my schedule does not permit me to testify in person today, 
I want to emphasize that the struggle against international terrorism 
is one of our government's top foreign policy priorities. Terrorism 
poses a dangerous threat to American citizens and to our interests in a 
safe and stable world. Terrorism is a threat that is not going to go 
away. We must continue our efforts to deter it, contain it and 
encourage other countries to do the same. Coordination within our 
government and coordination with other governments is a major part of 
this effort.

                          THE TERRORIST THREAT

    The continuing threat was outlined to Congress on April 30 when the 
State Department released its annual survey of international terrorism. 
The publication, ``Patterns of Global Terrorism: 1996'' reports that 
terrorism abroad continues to impose a heavy human, political and 
economic toll on the foreign policy and security interests of the 
United States and many other nations.
    Although the number of international terrorist attacks fell to 296 
last year, compared with 440 in 1995, the death toll worldwide in 1996 
rose to 311, compared with 177 in 1995. Twenty-four Americans were 
killed. This toll indicates a greater ruthlessness by terrorists and a 
growing pattern of inflicting mass casualties.
    The threat of terrorism to American interests was demonstrated in 
the truck bombing of the Al Khobar apartment complex near Dhahran, 
Saudi Arabia, which killed 19 American airman, and suicide bombings in 
Tel Aviv and Jerusalem where the casualties included eight American 
citizens killed or injured.
    Identifying, monitoring and defeating international terrorists is a 
more challenging task today because of their diverse character, 
organization, and motivations. In the past, established secular 
terrorist groups, revolutionaries, and state sponsors of terrorism were 
in the vanguard. Today, some states like Iran are still very active in 
terrorism, but involvement by other states has declined, because of 
growing international consensus against terrorism, in general, and, in 
the case of Libya, sanctions. Today's terrorists vary widely from 
relatively established extremist groups such as HAMAS and the 
Palestinian Islamic Jihad, to cultist, such as the Aum Shinrikyo in 
Japan and apparently ad hoc groups such as the one that attacked the 
World Trade Center.
    Terrorists also have increasing access to powerful explosives and 
weapons and are using technology such as computers, cellular phones and 
encryption. The threat of use of weapons of mass destruction, chemical, 
biological or nuclear, by terrorists is another problem. We are taking 
extensive measures to detect and deter such threats.

                             U.S. POLICIES

    To deal effectively with the variety of terrorist threats, U.S. 
counterterrorism efforts abroad are grounded on these basic policies:
  --We make no concessions to terrorist demands, recognizing that to do 
        so only invites further terrorism.
  --We are determined to seek out relentlessly and punish terrorists 
        wherever they may be, using the combined assets of U.S. law 
        enforcement, diplomacy, intelligence, and, if necessary, our 
        military assets. We have a long memory and reach when it comes 
        to terrorists who attack Americans.
  --We insist that terrorism is a crime, whatever its motives or 
        causes, and we promote the rule of law to criminalize it and 
        bring terrorists to justice.
  --We designate states which sponsor terrorism, imposing a wide range 
        of U.S. sanctions against them. And we encourage other nations 
        to do the same.
  --We seek maximum cooperation from other governments, recognizing 
        that, as terrorism is increasingly transnational, international 
        cooperation is critical.

                    COORDINATED INTERAGENCY PROCESS

    Effective counterterrorism calls for the skills and resources of 
many U.S. Government agencies. Coordination is essential. The President 
has designated the Department of State, in keeping with its foreign 
policy responsibilities, as the lead agency for coordination of our 
counterterrorism policy and operations abroad. The FBI has been 
designated as the lead agency for countering terrorism in the United 
States.
    When international terrorist crises arise, an emergency response 
team, led by S/CT and including crisis management experts from various 
agencies, as needed, can be deployed promptly anywhere in the world. 
The team's job is to respond to requests from the U.S. Ambassador on 
the scene and the host government for advice and assistance in 
resolving the crisis. Flexibility and responsiveness are the watchwords 
of this team.
    The Department of State and other agencies also participate in 
counterterrorism exercises--sometimes with friendly states abroad--that 
are critical for maintaining readiness to meet new threats. They range 
from ``table top'' simulations to actual deployments. Scenarios include 
terrorist hostage taking, hijackings, and threats or attacks involving 
weapons of mass destruction.
    The Departments of State and Justice and the FBI work closely 
together on law enforcement aspects of counterterrorism abroad, and 
with foreign governments concerned--for example, when the FBI 
investigates terrorist crimes against U.S. interests abroad and in 
cases involving the apprehension and extradition of terrorists overseas 
to bring them to trial in the United States. Close coordination between 
our Ambassadors and host governments abroad, rapid reaction, and 
intricate planning are critical to success in such operations.
    The strengthening of international law and increased adherence to 
the ten international conventions on terrorism, and expanding 
extradition treaties have also enhanced our efforts against 
international terrorism. The U.S. has led the way in ratifying and 
bringing into effect these conventions.
    The U.S. initiative in the Group of Eight last year led to the 
introduction of a new draft treaty on Suppression of Terrorist Bombing 
that is now being negotiated at the U.N.

               STATE SPONSORS OF TERRORISM, CONSULTATIONS

    Identifying state sponsors of terrorism, enforcing U.S. sanctions 
against them, and attempting to mobilize allied support are important 
weapons in our foreign policy arsenal. Iran, Iraq, Libya, Sudan, Syria, 
North Korea and Cuba have been designated by the Secretary of State as 
state sponsors. Of these, Iran is the most flagrant violator, and we 
have imposed a variety of comprehensive sanctions to change Iranian 
behavior. We are also active in working with other states to ensure 
strict compliance with United Nations sanctions against Libya, Sudan 
and Iraq. In the case of Libya, for example we are determined to bring 
to justice, in a Scottish or U.S. court, as mandated by the Security 
Council, the Libyan government agents who have been indicted for the 
bombing of Pan American flight 103 in 1988.
    State also organizes regular bilateral consultations with foreign 
governments worldwide. Justice, FBI, the intelligence community and DOD 
form part of the interagency U.S. Government team which meets with its 
overseas counterparts, as we are doing in Spain and Italy this week.
    There also are increasing multilateral efforts to combat terrorism. 
We have worked in the Group of Seven, plus Russia, for example, to 
tighten cooperation among the major industrial states. The twenty-five 
counterterrorism recommendations of the G-7/P-8 Ministerial held in 
Paris last July are a solid basis for international cooperation. The 
United States plans to give this effort further momentum at the Summit 
we will host in Denver in June.
    We are also working with the European Union and the Organization of 
American States on counterterrorism cooperation. A series of 
conferences last year included a meeting in March of counterterrorism 
experts from the Middle East, whose governments took part in the Sharm 
El Sheikh Summit.
    The State Department meanwhile supports efforts of Treasury, FBI 
and Justice to combat fundraising by foreign terrorist organizations in 
the U.S. and to encourage other governments to take steps against 
terrorism fund raising. These efforts are discussed in many of our 
bilateral meetings.

                        RESEARCH AND DEVELOPMENT

    We know of members' concerns about the threat of terrorism from 
biological, chemical and nuclear agents and we share that concern. 
Improved technology is an important tool for countering these as well 
as more conventional terrorist threats. The U.S. Government has a 
Technical Support Working Group, known as the TSWG which is comprised 
of 50 government agencies and operates a vigorous program of research, 
development, and rapid prototyping of antiterrorism and 
counterterrorism technologies.
    The goal of the TSWG is to develop new technologies which can be 
used by many federal, state and local agencies. There is special 
emphasis on explosives detection technology and a strong focus on 
detection of and protection against terrorist use of materials of mass 
destruction. The Department of State, through S/CT, provides policy 
guidance for the TSWG program, and the Department of Defense is the 
executive agent. Both agencies also provide funding. State also leads 
three bilateral R&D programs with Canada, the United Kingdom and 
Israel. They also contribute funds and expertise, thus creating a 
strong multiplier effect for the U.S. Government's investment.

      OTHER COUNTERTERRORISM ACTIVITIES OF THE DEPARTMENT OF STATE

    Within the Department of State, other bureaus also play important 
roles and work with other agencies:
    The Bureau of Intelligence and Research (INR) is part of the 
intelligence community and provides timely, around the clock, 
intelligence and analysis on terrorism. INR also compiles and maintains 
our computerized TIPOFF system, an important border control mechanism 
which links visa sections at our missions abroad to a master data base 
of names of terrorists, criminals and drug traffickers.
    The Bureau of Consular Affairs, charged with the protection of 
Americans overseas, works closely with S/CT and the Bureau of 
Diplomatic Security to provide warnings to Americans overseas about 
terrorist and other risks.
    The Office of the Legal Adviser provides daily guidance on all 
legal aspects of counterterrorism, treaties and extradition issues and 
works closely with the Department of Justice and the FBI.
    Finally, the Bureau of Diplomatic Security has the role of 
protecting U.S. missions and diplomats overseas and in the United 
States. It also implements State's Antiterrorism Training Assistance 
(ATA) Program which has trained about 18,000 foreign officials, and the 
State Department's terrorism information rewards program.
    In sum, there is an aggressive, coherent, well coordinated 
interagency effort under the leadership of the Department of State to 
combat international terrorism and mobilize support from other nations 
abroad in this campaign.
    But good counterterrorism policies and programs cannot do this job 
alone. The United States also needs to maintain its leadership in 
dealing with a host of problems and conflicts abroad that, if 
neglected, can lead to terrorism, other forms of violence, and even 
war. We must continue to foster strong relationships with nations 
around the world, whose help we need to pursue terrorists. We cannot do 
this alone.
    Preserving the leadership of the United States in dealing with a 
broad range of threats to our national security also requires adequate 
resources for Foreign Affairs.
    The United States has a proud record of leadership in combating 
international terrorism. We are determined to maintain and strengthen 
our capabilities against the dynamic and varied threat, to keep 
terrorists on the defensive, where they belong, to bring them to 
justice, and to minimize the risk they pose to civil society.

    Chairman Stevens. Senator Hollings.
    Senator Hollings. I thank you, Mr. Chairman, and I thank 
the chairman of our subcommittee, Senator Gregg. In the 
subcommittee and under Senator Gregg's leadership, we have 
increased the budget for terrorism in the last 4 years some 400 
percent. We have gone from $90 million to $397 million. So 
counterterrorism has not been wanting of money in that sense. 
But on the other hand, Director Tenet now says that the most 
secretive of targets is terrorism, and all three witnesses here 
agree that there is superb coordination.
    I have a question for you, General Reno, specifically since 
you represent the Immigration Service and they are not at the 
table. If you go to 22d Street in New York City, they have 
these five, six story buildings that are full of these stores, 
block upon blocks of stores, where counterfeit goods for 
terrorism activities are sold. The profits are used to finance 
Hamas, Hizballah, and other terrorist activities. Now, the FBI 
was good enough to take my staff there with some of New York's 
finest, and, of course, the obvious question was since we were 
told that they were mostly illegal aliens in all of these 
operations, why did the Immigration Service not come around and 
arrest them? Let me ask you that question, Attorney General 
Reno. What is the matter? If you are all so coordinated and so 
secretive, why is this going on in the wide open on 22d Street? 
Go on up there this afternoon.

                      MULTIPLE AGENCY COORDINATION

    Ms. Reno. With respect to the coordination between the INS 
and the FBI and known terrorists, I cannot, while we are in 
open session, describe it in very specific detail, but I can 
tell you that there has been effective coordination. Director 
Freeh and Commissioner Meisner and I have discussed it.
    With respect to the deportation of illegal aliens, what we 
are trying to do with respect to immigration strategy is to 
focus on illegal immigration and prevent it at the border. This 
committee has been very supportive in terms of the initiative 
with respect to the Border Patrol and immigration inspectors on 
the border. At the same time we are focused on the deportation 
of criminal aliens from State prisons, from Federal prisons, 
but as well we are trying to develop, with the resources as you 
are giving them to us, the capacity for immigration 
investigators and inspectors in local areas to work with the 
police in identifying illegal aliens who are engaged in 
criminal activity. It may be that the police do not have 
sufficient information with which to charge them, but it is our 
hope that we can develop, as we gain the resources, the 
capacity to identify them sufficient to deport them.
    Senator Hollings. But the FBI is pointing them out. Here is 
where the terrorists make their money, here is where they 
finance terrorism. Look at all of the buildings there, block 
upon block of these buildings, and most of them are illegal 
aliens, we were told. In fact when the staff went there, 
everything immediately closed up. I mean, they pled guilty. So 
there is no doubt in my mind that the information we received 
from the FBI was correct, and it is not so secretive, George. I 
would say it is wide open, and I think we have to get onto 
these things.
    Now, another concern I have regarding your coordination is 
that I think there is a misplaced coordination with respect to 
our overseas operations. In my experience, and I started with 
the agency back in the fifties, you do not have any CIA agents 
running around in full cover overseas saying I am a CIA agent, 
do you? No, sir. That is right. Because it is quite obvious as 
a matter of foreign policy that other countries would resent 
the idea that you had openly tried to spy or obtain 
information, especially with respect to law enforcement. It is 
not coordination that the Director of the CIA and the Director 
of the FBI are having between themselves, but it is 
coordination with the host country.
    Right to the point, with the President in Mexico now, I 
would not count on a Mexican agent coming up here to enforce 
the law on drugs, and why should Mexico in turn count on any 
DEA agents or others running around Mexico enforcing laws? It 
would make them look like a second-rate country, and it 
reflects the arrogance of the United States. I happen to agree 
with Mexico on that point. And because you are asking for more 
money, and this is the subcommittee that Senator Gregg and I 
have, we are going to resist paying for thousands more agents 
going overseas. I can understand Saudi Arabia saying look here, 
we will enforce our own laws. Every country says that.
    So let us get right to the point--we love the coordination 
between the departments, but the primary function of 
intelligence gathering overseas is going to be with the Central 
Intelligence Agency, not with FBI agents running around. Can an 
FBI agent run around with a gun in Paris?
    Ms. Reno. Senator----
    Senator Hollings. Yes, Ma'am.

                        INTELLIGENCE COLLECTION

    Ms. Reno. The prime responsibility for intelligence 
collection overseas will be that of the CIA. But the CIA is not 
trained to collect information that can be admissible in our 
courts, and we are faced--when you just hear the dissertation 
on what the Internet can do in terms of bombs and everything 
else, we are faced with a world where borders are shrinking 
and, because of cyber tools, the borders are nonexistent. We 
see through, organized crime and through international crime of 
so many different sorts, the impact of crime felt round the 
world. When a man can sit in his kitchen in St. Petersburg, 
Russia, and steal by his computer from a bank in New York City, 
we have got to have a law enforcement capacity that can make 
sure that those people are apprehended.
    Senator Hollings. In St. Petersburg--is that your point? We 
should have an FBI officer there in St. Petersburg? Let us say 
he is standing right in the room and what you say just has 
occurred. He has used his computer illegally to mess up bank 
accounts at Chase Manhattan, so that is a crime.
    Ms. Reno. We have found----
    Senator Hollings. And you think that we should have an FBI 
agent there to arrest him?
    Ms. Reno. No; I do not think we should have an FBI agent 
there to arrest the man.
    Senator Hollings. I am talking about stationing--you see, 
you do not have the Secretary of State here at this hearing. 
The State Department has the primary responsibility for 
terrorism overseas. Period. I am trying to get that 
coordination clarified, because it goes right to the heart of 
the foreign policy of the United States. We are trying to make 
friends. We are trying to hold some alliances together, but we 
are not going to do it if we have that FBI agent roaming around 
in St. Petersburg looking for crime.
    Ms. Reno. I do not suggest that an FBI agent should be in 
St. Petersburg roaming around looking for crime. What we have 
determined through the investigation of such crimes is that we 
need the capacity to coordinate with foreign law enforcement to 
develop the evidence----
    Senator Hollings. Ah, now you are getting with the program. 
With foreign law enforcement. That is my point.

                          EVIDENCE DEVELOPMENT

    Ms. Reno [continuing]. To develop the evidence, and to do 
it in a procedure that can result in somebody being held 
accountable. With respect to foreign terrorism against U.S. 
officials, the State Department has the lead, but in the system 
devised by PDD-39 it is still the FBI that is responsible for 
trying to develop the evidence that can result in indictments 
being returned in the appropriate venue in this country and 
these people being brought to justice.
    I think you were here when I gave some description of what 
can happen. It may take us some time to bring them to justice, 
but we can get them extradited, brought to this country, tried, 
when they harm or commit terrorist acts against U.S. interests 
abroad.
    Senator Hollings. I know the rationale. Madam Attorney 
General, are you requesting additional FBI agents for overseas 
assignment?
    Ms. Reno. Not at this point, sir. You have funded us, and 
you have been very generous in your funding. Senator, I think 
you have approved the plan. Let me have Director Freeh clarify 
it.
    Mr. Freeh. Senator, the eight offices that we seek to open 
over the next 2 years are offices which were approved by the 
two committees in the FBI's 5-year plan which you asked for and 
which we submitted. This plan has the support of the State 
Department I would add.
    Senator Hollings. I understand. We can get into it in 
closed session.
    Chairman Stevens. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Ms. Reno or 
Director Freeh, does our, or does your traditional definition 
of terrorism include such things as computer attacks intended 
to damage our telecommunications or transportation 
infrastructure? Director Freeh?
    Mr. Freeh. Yes, sir, it clearly would.
    Senator Shelby. That is included?
    Mr. Freeh. That is included. Any threat against the 
national security, particularly one directed by a foreign agent 
or a foreign power, would clearly be in the category of 
terrorism.
    Senator Shelby. What about a terrorist group that is an ad 
hoc group that is not part of, as far as we know--it would 
still be covered?
    Mr. Freeh. We would define that as an act of terrorism. 
Yes, sir.
    Senator Shelby. So you have the legal structure to deal 
with this?
    Mr. Freeh. Yes; both to investigate it and to prosecute it.
    Senator Shelby. Mr. Freeh and Mr. Tenet, in order to 
adequately address the security problems that we are having 
around the world, what are we doing about language specialists 
who speak Arabic and Farsi and so forth? We got into some of 
this with Mr. Tenet the other day in the Intelligence 
Committee, but I would just like to know about the FBI.

                          TRANSLATION CENTERS

    Mr. Freeh. One of the initiatives which was funded by this 
Congress and particularly this committee for 1997 was the 
establishment of translation centers. We have one now which has 
been established in New York City. We are recruiting and 
testing, and subjecting to background interviews, people who 
will staff this center. We have about 300 of the 385 linguists 
on board filling those positions. We borrow linguist very 
heavily from the Department of Defense, who have been very 
generous in giving us coverage, particularly with those who 
speak Farsi and some of the more difficult languages.
    Senator Shelby. Is this adequate at this point, or are you 
going to always continue to strive to get more language 
specialists?
    Mr. Freeh. When we fill all these positions, we feel that 
with the supplements that we get from the military, as well as 
other contract linguists, we will have enough people to do our 
job, but I see it increasing over the next few years.
    Senator Shelby. Mr. Tenet.
    Mr. Tenet. Senator, as you know, we have talked about this 
at the Intelligence Committee, but with regard to our hard 
targets we are placing an enormous emphasis on language 
development and capability. We will not be able to provide the 
analytical or operational expertise required unless we go down 
this road, and we are going to embark on a major 10-year 
program.
    Senator Shelby. Is this not a change of some degree from 
what you needed in the past?
    Mr. Tenet. Well, Senator, I think it is fair to say that it 
is, but it is not just this target that requires it.
    Senator Shelby. It is all over, is it not?
    Mr. Tenet. It is the kind of difficult issues we face 
around the world that require this language capability, so it 
will be a major initiative.
    Senator Shelby. Are you making progress there?
    Mr. Tenet. Well, Senator, it is slow. You do not get people 
up to level 3 or level 4 language capability over night. You 
have to also do the work every day as well, so it will be a 
long-term project on our part.

                            TERRORIST THREAT

    Senator Shelby. Ms. Reno, dealing with the terrorist threat 
and organizations, some are state sponsored, or at least we 
have reason to believe that they are, and some of them are ad 
hoc groups that are hard to probably totally connect them to a 
state-sponsor group. Do these ad hoc groups constitute a 
greater or a lesser threat, or is there any way to measure 
that?
    Ms. Reno. I think Director Freeh can address that. I look 
at them all as threats.
    Mr. Freeh. I think it varies in scope. If Syria or Iran 
hypothetically are sponsoring an attack against the United 
States, they bring huge resources, operational resources, and 
capabilities that a smaller group would not have. On the other 
hand, a small group, as we saw in the World Trade Center 
bombing, acting, as far as the evidence revealed, without any 
foreign state sponsorship, was able to mount enough resources 
covertly to almost topple one of the Trade towers. So I think 
it would vary from situation to situation.
    Senator Shelby. Could we expect in the future perhaps more 
ad hoc groups rather than just rogue nations? I know you will 
have some of both sponsoring this directly and indirectly.
    Mr. Freeh. It certainly appears to be the trend. Of the 
seven nations who we have identified as sponsors of terrorism, 
some are more active than the others. With respect to many of 
these groups, even groups such as Hamas and Hizballah which 
operate with foreign state support, there are many, many groups 
and I see them proliferating and perhaps becoming a greater 
threat than the organized state sponsors themselves.
    Senator Shelby. But it is a heck of a threat, whoever 
sponsors it, is it not?
    Mr. Freeh. Yes.
    Senator Shelby. It is just how you compete with it.
    Mr. Freeh. Absolutely.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Reid.

                       INTEGRATED FORCE TRAINING

    Senator Reid. Thank you, Mr. Chairman. As our military 
forces have learned, integrated force training in realistic 
environments is the best preparation for operational 
deployment. We have also learned that investments in realistic 
training have been returned many times over through these 
operational savings in costs and in lives. So counterterrorism 
training, I think, defines operational environments that are 
also difficult to meet. We have a large facility in Nevada that 
is larger than a number of the States in the Union that is 
called the Nevada test site. The Nevada test site, you know, 
you can set off high explosives there, have chemical testing 
facilities that are operational there, there are tunnels, 
buildings that have been developed over the years. It seems to 
me it provides a secure environment for classified or 
clandestine training, but also it has open areas for 
nonclassified exercises.
    You may not want to answer this here, you might want to 
wait until our next meeting, but I am wondering why there is 
not more done there. We hear a lot of stuff being done in 
offices, but there is not a lot of actual training that goes on 
in areas that I think we need to look at. I mean, we hear all 
the time about chemical weapons that are being placed 
underground in other countries. We do not know how to breach 
those facilities. Again, you may want to answer this later, but 
is there anything going on to consider using this vast area out 
there which is now underutilized?
    Mr. Freeh. Senator, since 1994 we have had 35 governmental-
wide counterterrorism exercises, mostly involving Federal 
agencies and almost always involving some State or local 
components. There are 25 exercises planned over the next year 
through 1998. I would be happy to explore and discuss with you 
specifically not only the site you refer to but other sites in 
terms of the advantages and disadvantages for training, but the 
exercises which are ongoing and have been ongoing are a central 
part of our preparedness, and I would certainly be happy to 
explore that with you in the other session.

                            ORGANIZED CRIME

    Senator Reid. In years gone by in the State of Nevada we 
have had experience with organized crime from various places 
around the country. Has there been any coordination between 
organized crime in the United States and any of these terrorist 
organizations?
    Mr. Freeh. There have been indications of organized crime 
groups dealing with terrorist groups in very limited or 
specific matters, both traditional groups in the United States, 
Russian mafia groups more recently, and even some connection 
with the Italian traditional organized crime groups. But the 
connections have been very specific and not, in my view, 
suggestive of a combination of efforts.
    Senator Reid. Just hire them for a certain job is what you 
are saying?
    Mr. Freeh. We have seen some intersections with equipment, 
weapons, and information.
    Senator Reid. Thank you, Mr. Chairman.
    Chairman Stevens. Thank you, Senator. Senator Specter.

                             DEFENSE BUDGET

    Senator Specter. Thank you, Mr. Chairman. I commend you, 
Mr. Chairman, for this hearing. I thought when I came in it was 
Defense Appropriations Subcommittee, but it is not. I believe 
that terrorism really has become the form of war in our era, 
supplanting warfare. We have a defense budget today which is 
under $250 billion. We had a defense budget in the mideighties 
in excess of $310 billion, which would be about $400 billion 
today. What I wonder about is whether we are putting adequate 
resources into this war on terrorism. I see the President's 
budget request for the Department of Justice counterterrorism 
is $417 million. That is a lot of money, and a lot of money has 
been added, but I wonder if it is significant.
    My own view is that we are not doing nearly enough against 
terrorism, and that we are really winking at it. I would like 
to make a few observations and then ask two questions. Not much 
time within 5 minutes.
    I am very distressed about what has happened with the 
investigation at Dhahran, where the reports which leak out of 
the Department of Defense suggest that nobody is at fault 
there, although the fence was 80 feet away and the car bombs 
were known to contain 12,000 pound bombs. And yet the 
Department of Defense is prosecuting a single woman for having 
a relationship with a man who represented himself as single. I 
do not know quite what investigation she is supposed to be.
    And then we have the green light which Prime Minister 
Netanyahu said Arafat gave for the bombing in Israel on March 
21, and the next day President Clinton comes out immediately 
and says Netanyahu is wrong and Arafat is a man of peace, and I 
have asked the Secretary of State what the facts are, was there 
a green light.
    And we see this fellow, Marzuk, who was held for almost 2 
years in the detention center in New York, sent back to Jordan 
on a military jet. You wonder what we are doing about terrorism 
if Marzuk is let free because he is going to cause too much of 
a problem if he is prosecuted. I really never heard the likes 
of that. If I was to be concerned as DA of Philadelphia about 
trouble makers, I would not have prosecuted most of the people 
up in the criminal courts. We are just surrendering to 
terrorism when that happens.
    We have a statement made by the deputy education minister, 
Moshe Pelad, that Arafat had prior knowledge of the bomb plot 
in the New York City's World Trade Center. I wrote to you, 
Attorney General Reno, about that, and got back a vacuous 
answer from a Mr. Andrew Floyce who says that they contacted 
Israeli intelligence and do not know anything about it. So I 
called up the deputy education minister, and he appears to have 
information that he is reluctant to talk about. If Arafat was 
involved in the Trade Center bombing, he could be extradited to 
the United States. We went to a lot of trouble in the 
mideighties to make extraterritorial jurisdiction a factor 
there.
    The two questions that I have which I would like to address 
to the panel generally, I would be interested in Mr. Tenet and 
the Attorney General and Director Freeh, is are we devoting 
enough resources to fight terrorism? Human intelligence is 
woefully lacking in the CIA, something that we have all known 
about for a long period of time. What does it take? Because if 
we are devoting $500 million to terrorism, we are doing more 
than that, of course, when the CIA is added in, but nowhere 
near what our defense budget would be, are we doing enough?
    And with the FBI, are we really able to handle all that has 
been given to the FBI? The FBI I think is a marvelous 
institution, and you, Director Freeh, I have said this to your 
face and I have said this behind your back and I have said it 
to the television cameras, I think you are doing a very good 
job. You have got a very tough job, and there are a lot of 
problems over there, with the FBI files going to the White 
House and with what has happened with the Atlanta pipe bombing 
matter and what is happening at the laboratory, and as 
assistant DA I used to try cases and the FBI laboratory was 
sacrosanct. I think you are doing a good job, but how much can 
you do? Do you have enough resources? What does it take to 
really do the job?
    Because I think that this committee would be prepared to 
give you what you need. Senator Stevens is used to 
appropriating $310 billion for defense when it is necessary. He 
was the chairman of the subcommittee, now he is the chairman of 
the full committee. He still is chairman of the subcommittee. 
OK, we will call you Mr. Chairman, Mr. Chairman.
    The specific question I have for you is that just before 
coming to the hearing I got some information, Director Freeh, 
that this man, Hani Al Sayedh, Khobar Towers bombing suspect, 
is alleged to have snuck through INS in Boston, that he had an 
INS stamp on his passport before going to Canada--let me ask 
you that question specifically, Director Freeh, if there is any 
substance to that, before I pose the generalized question to 
the panel about what would it really take to have a successful 
war resource effort?
    Mr. Freeh. With respect to your question on Mr. Sayedh, he 
transited Boston on the way to Canada. He did not enter the 
United States, did not pass immigration, but simply transited 
the airport and legally did not enter the United States from an 
immigration point of view.
    Senator Specter. Well, I will pass on my source to you that 
there is supposed to be an INS stamp in his passport at Boston.
    Mr. Freeh. I will follow that up, sir.
    Senator Specter. I would be interested to know generally 
what it would take to really wage a successful war with humint 
and whatever we need to do it.
    Chairman Stevens. Senator, you may not know, we are going 
into a classified session in a minute. I think perhaps part of 
that is going to be answered on a confidential basis with the 
committee. You can ask the question if you would like, but I 
would prefer to explore that in the way we had planned.
    Senator Specter. Well, Mr. Chairman, to the extent they can 
answer in an open session, I think it would be useful, because 
I think the American people need to know really what it takes, 
because my instinct is when they hear it from the Attorney 
General, the CIA Acting Director, and the FBI Director, they 
will appreciate knowing what it is.
    Chairman Stevens. Well, I agree with you, but I am not sure 
we want all those people out there to know how much we really 
are putting into it too, the ones that are not on our side.
    Senator Specter. Well, that leaves it up to the witnesses.

                        COUNTERTERRORISM SUPPORT

    Mr. Freeh. Senator, first of all I appreciate all of your 
remarks and your support, particularly in the counterterrorism 
area which goes back many, many years. We have grown in 3 years 
from a $93 million budget to a $243 million budget in 
counterterrorism. You and your colleagues were generous enough 
last year to give the FBI 1,264 new positions. We are hiring 
these people, we are training them, we are putting together 
both the human resources and the infrastructure to support the 
counterterrorism effort. We are in two or three times better 
condition in 1997 than we were in 1993 to undertake our 
counterterrorism mission. A mission which, as you point out, is 
a huge and growing one. We are in Saudi Arabia, we are taking 
fugitives back from Pakistan, we are in many, many places where 
we have not been, which is why we need our Legats. I am sorry 
Senator Hollings has left.
    We are doing everything we can right now to absorb this 
vast increase in resources. I would rather absorb that growth 
before we start another huge influx of resources.
    Senator Specter. We ought to give the money to the CIA 
instead?
    Mr. Freeh. I am sure they could use some resources.
    Mr. Tenet. Senator, I would like to respond and just say I 
think we are already at war. We have been on a war footing for 
a number of years now. I do not think it is a question of money 
in our case, I think it is a question of focus, operational 
tempo, the aggressiveness with which we pursue this target. I 
do not have any doubt about the level of that effort today, and 
I would challenge your premise about the lack of human 
intelligence against the terrorist target. I think it is 
something we should talk about behind closed doors, because I 
think that effort is better than it has ever been, and growing. 
I think there are successes to prove it in some of the facts we 
have laid down in open session.
    Chairman Stevens. Let me call on Senator Cochran, and we 
will withdraw here after his 5 minutes are over to our 
designated room, which is room 124 just down the hall. Those 
people who are invited know who they are.
    Senator Cochran.

                        STANDARDS AND GUIDELINES

    Senator Cochran. Mr. Chairman, I just have two questions. 
One is the extent to which our Federal law enforcement agencies 
which are represented here today have what they consider to be 
a good working standard or guidelines for deciding when the 
Federal agencies should become actively involved, and when 
State and local law enforcement authorities can just as well do 
the job. This to me is a big challenge now. I know that the 
problem, or the challenge, has been made bigger by a 
hyperactive Congress passing a lot of laws and federalizing a 
lot of activity that might very well be more appropriately, 
more efficiently, even more effectively handled at the State 
and local level. That is not something that the Federal 
agencies like to admit or the Congress likes to acknowledge, 
but I think it is really one of the big problems we have now in 
trying to more clearly define the dichotomy or the separatism 
of the Federal-State relationships.
    I started talking after I asked my question, and I should 
have stopped. What is the status right now of the Federal-State 
relationship, and when do you decide to get involved or not to 
get involved? You did not get involved, I do not think, in this 
recent Texas encounter, and the State government handled it 
very well, it seemed to me, maybe better than the Federal 
Government has handled similar situations in the past. Have we 
learned from some of those past mistakes, or is this just an 
indication of restraint that was well advised?
    Mr. Freeh. Senator, you cite a very, very good example, the 
Republic of Texas incident, which was handled very well by the 
State authorities. That was a circumstance where at the 
initiation of that event there was, first, no Federal violation 
that we were aware of. Second, the State authorities did ask 
for assistance, but very minimal assistance. We provided, 
during the course of that incident, hostage negotiators, 
technical assistance, photographic assistance, which is what 
the Texas authorities requested. There was no need, in the 
judgment of the Attorney General and myself, to intervene 
federally. That decision turned out to be a prudent course. I 
think we look at each situation on a case-by-case basis.
    The Freemen situation in Montana was quite different. There 
were more people in the Freemen compound than the sheriff had 
on his law enforcement force. They asked for Federal 
intervention. There were clear Federal violations. There were 
Federal charges. It was a situation where the State authorities 
requested Federal assistance, and we determined it was 
appropriate to intervene.
    But we have great confidence in our State and local 
partners. There are over 600,000 State and local officers 
around the country. But 50 percent of the police forces have 
under 10 sworn officers. It is in those particular areas where, 
with the addition of Federal charges, we can bring our 
resources to bear.
    I think you have seen and will see restraint on our part. I 
think we have learned from past episodes, but we will not 
hesitate to intervene federally when it is appropriate to do 
so.
    Senator Cochran. Madam Attorney General.
    Ms. Reno. You are looking at a former State prosecutor that 
sometimes resented the Feds coming in and telling us what to 
do. So what we have tried to do, Director Freeh, the Director 
of the Marshals Service, Mr. Gonzales, and Administrator 
Constantine, and I have reached out to the U.S. attorneys and 
to the special agents in charge in the field saying we want to 
form a partnership with State and local law enforcement. There 
will be some things they do better, some things we do better, 
sometimes we need to give them information or provide them 
expertise or equipment. But we are not in this to claim credit, 
we are not in this for the turf. We are in it to see that it be 
done the right way consistent with what is in the best interest 
of the case and the best interest of the community.
    I think it has been working, both in the examples that 
Director Freeh cites and in our whole effort against violence 
in this country. In many instances the State and local 
prosecutors will proceed with the case with information that we 
furnished them, because they can get as good a result. In other 
instances they will ask us to do it, but we try to consult with 
them and do it in a collegial way.

                           ENACTMENT OF LAWS

    Senator Cochran. Thank you. My second question is related 
to the fact that we tend to pass laws creating Federal crimes 
out of State and local crimes. My question is how does this 
operate to take away funds, resources, attention from doing the 
things that is the subject of this hearing today, which to me 
seems to be an overriding concern in many cases, and only the 
Federal agencies represented here are equipped and authorized 
to really handle?
    We just saw the House, for instance, pass this juvenile 
justice reform bill. At first blush it seems to me to make 
Federal crimes out of juvenile crimes in areas where it is 
really arguably not necessary. But we are going to take a look 
at the bill and see whether or not it is a positive and 
constructive act to try to do something that should be done 
about juvenile justice, or whether it just adds another layer 
of illegality or prohibition at the Federal level that already 
exists at the State and local level that could better be 
handled there.
    To what extent do you think you will be required to assign 
resources, people, and budget dollars that are hard to come by 
to this and have it taken away from antiterrorism activities?
    Ms. Reno. The way we have tried to approach everything that 
we do when there is concurrent jurisdiction is to say who can 
do it best, and in many instances--and we consult with the 
State and locals in determining who can do it best, if they are 
equipped to do it--and we recognize that street crime and youth 
crime is basically a local function. There will be exceptions.
    In the Indian country, we have got to address Federal laws 
to make sure that they are appropriately responsive in a 
balanced, thoughtful way to address issues of youth crime, 
because we have the primary responsibility. But with respect to 
most of this country what we say is we can do some things that 
the locals cannot do, and they are much more sensitive to so 
many of the issues and to many of the witnesses and the 
sources, and they have some advantages that we do not have. Let 
us work together.
    If it is a crime that cuts across State jurisdictions so 
that we are the only ones that can bring the significant enough 
case to a result and a penalty that fits the crime, then let us 
do it, because it cuts across district lines. If it is 
something that is intensely local, let them do it. If it is one 
sheriff with a terrible crime and he has got two deputies and 
no expertise and says please, for heaven's sake, help me, this 
is a dangerous offender, and we have got jurisdiction, we want 
to work with him. But we want to do it consulting with the 
State and locals in a partnership to make sure that we do not 
duplicate resources, that we use it in the wisest way possible, 
and then what is in the best interest of solving the crime and 
of helping the community.
    Senator Cochran. Thank you. Thanks, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Stevens. Thank you very much. We have held this 
hearing ahead of the time we are called upon to make our 
allocations under the budget resolution we hope will be adopted 
soon. Any additional questions we have to ask will be submitted 
to them.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                    Federal Bureau of Investigation

           Questions Submitted by Senator Frank R. Lautenberg

                          ILLEGAL FUNDRAISING

    Question. Several years ago, this subcommittee put additional 
funding into the budget to enhance federal efforts to prevent illegal 
fundraising in the U.S. on behalf of organizations, such as the ill-
famed Hamas organization, that support terror to undermine the Middle 
East peace process. The funding was intended to bolster efforts to 
promote greater enforcement of Executive order 12947, which is listed 
as ``Prohibiting Transactions with Terrorists Who Threaten to Disrupt 
the Middle East Peace Process.'' How are you faring in efforts to crack 
down on illegal fundraising in this country?
    Answer. The FBI works in concert with the U.S. Department of the 
Treasury's Office of Foreign Assets Control (OFAC) to identify illegal 
fundraising activity in the United States. Where possible, the FBI 
contributes information of a criminal nature on illegal fundraising to 
OFAC for specific law enforcement action. We closely monitor 
international terrorist organizations in the United States through 
extensive investigation. The FBI utilizes all of its investigative 
authorities in our overall strategy to disrupt the criminal activities 
of international terrorist organizations in the United States.
    Question. Are less funds being raised illegally in this country 
today than two years ago? Or more?
    Answer. The majority of funds raised in the United States are for 
benevolent, charitable, and relief efforts to the needy. The FBI 
continues to focus on the diversion of such monies to support the 
military wings of terrorist organizations. The FBI cannot initiate an 
investigation on the premise of fund raising alone, unless criminal 
activity/intent is present. The FBI has intensified its investigative 
efforts directed at international terrorism groups to detect all 
criminal activities.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                            TERRORISM THREAT

    Question. The threat of terrorism from weapons of mass destruction, 
particularly those associated with easily produced chemical or 
biological devices, has increased in recent years and is now a problem 
of world wide significance. Even so, the United States is still not 
obviously prepared to meet this threat. Please discuss the scope and 
status of national preparedness to respond to terrorism and its 
possible consequences.
    Answer. Pursuant to the Defense Against Weapons of Mass Destruction 
Act of 1996, the National Security Council (NSC) was tasked to generate 
a report for the President to transmit to Congress that provides an 
assessment of the capabilities of the Federal Government to prevent and 
respond to domestic terrorist incidents involving Weapons of Mass 
Destruction (WMD), and to support State and local prevention and 
response efforts. The FBI, in coordination with Federal Emergency 
Management Agency (FEMA) and with input from other crisis/consequence 
management agencies, provided responses to Sections 1411, 1416 and 1443 
of the Act. The President sent the Policy Functions/Operational Roles 
of Federal Agencies in Countering the Domestic Chemical/Biological 
Threat Report to Congress on January 21, 1997. This report describes 
the respective policy functions and operational roles of Federal 
agencies in countering the threat posed by the use or potential use of 
biological and chemical weapons of mass destruction.
    Question. Studies and expert witnesses testify to lack of readiness 
on the part of first responders to manage the full spectrum of threats 
they might face in the event of a terrorist attack. Findings indicate 
the need for national training sites with facilities to support 
realistic training and exercises simulating attacks by weapons of mass 
destruction. The sites would presumably provide both urban and suburban 
environments with permitted releases of dangerous substances or their 
simulants. What is being done by the administration to define the 
facilities, areas, and requirements for realistic training and 
exercises? Is there a comprehensive national review of existing 
facilities that could be designated for this task?
    Answer. Section 521(b)(2) of Public Law 104-132, the ``Anti-
Terrorism and Effective Death Penalty Act of 1996,'' states that ``the 
President shall establish an interagency task force to determine the 
feasibility and advisability of establishing a facility that recreates 
both an urban and suburban environments in such a way as to permit the 
effective testing, training, and evaluation in such environments of 
government personnel who are responsible for responding to the use of 
chemical and biological weapons in the U.S.''
    When the Nunn-Lugar-Domenici legislation mandating first responder 
training was enacted, it was thought initially that the best approach 
to meet this need was through establishment of national training. 
However, after consultation with a group of expert first responders 
from the State and Local police and fire communities, the Department of 
Defense (DOD), the Department of Justice and the other members of the 
Senior Interagency Coordinating Group on Terrorism (SICG) have 
concluded that the concept of training first responders in 120 
localities in the United States initially should focus on ``training 
the trainers,'' with the ultimate goal of developing communities to a 
point where they can train themselves.
    By October 1, 1997, the FBI will assist DOD in assessing the 
training needs of 27 cities, and will provide actual training and 
course materials to the trainers for 8 of these cities. These trainers 
will incorporate the materials into the training provided to the first 
responders from other communities. The training of the trainers for the 
other 19 cities will occur in fiscal year 1998. Assessments of the 
training needs of the other 91 cities will also be made in fiscal year 
1998 and fiscal year 1999. Appropriate exercises will be conducted to 
test the effectiveness of such training. The FBI is also considering 
``distance learning'' through multiple down link sites to train 
hundreds of responders at the same time in an interactive environment. 
The current concept of a national training center poses more questions 
than answers at this time. Thus, the concept needs much more work 
before the FBI and the Department of Justice can support it. The 
concept of a national training site remains an option. However, the 
apparent cost effectiveness of ``training the trainers'' either in 
their respective cities or possibly through ``distance training'' makes 
this approach a more desirable option to pursue at this time.

                         CONCLUSION OF HEARING

    Chairman Stevens. I believe that the rest of the questions 
we have to ask of these witnesses are matters that really touch 
and concern the national security of this country, therefore, 
we will move it to room 124 in this building, the Dirksen 
Building. It will be a classified hearing.
    [Whereupon, at 3:32 p.m., Tuesday, May 13, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  - 
</pre></body></html>
